<html>
<title> - ASSESSING THE UNITED NATIONS HUMAN RIGHTS COUNCIL</title>
<body><pre>[Senate Hearing 115-776]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-776

            INSERT TITLE HEREASSESSING THE UNITED NATIONS 
                          HUMAN RIGHTS COUNCIL

=======================================================================

                                HEARING


                               BEFORE THE

                      SUBCOMMITTEE ON MULTILATERAL
                       INTERNATIONAL DEVELOPMENT,
                     MULTILATERAL INSTITUTIONS, AND
                    INTERNATIONAL ECONOMIC, ENERGY,
                        AND ENVIRONMENTAL POLICY


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION



                               __________

                   INSERT DATE HERE deg.MAY 25, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations






              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                   Available via the World Wide Web:
                         http://www.govinfo.gov

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-978 PDF                 WASHINGTON : 2020 

























                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



           SUBCOMMITTEE ON MULTILATERAL INTERNATIONAL        
            DEVELOPMENT, MULTILATERAL INSTITUTIONS,        
              AND INTERNATIONAL ECONOMIC, ENERGY,        
                    AND ENVIRONMENTAL POLICY        

                 TODD YOUNG, Indiana, Chairman        
JEFF FLAKE, Arizona                  JEFF MERKLEY, Oregon
CORY GARDNER, Colorado               TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               CHRISTOPHER A. COONS, Delaware
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts





                              (ii)        

  











                            C O N T E N T S

                              ----------                              
                                                                   Page

Young, Hon. Todd, U.S. Senator From Indiana......................     1


Merkley, Hon. Jeff, U.S. Senator From Oregon.....................     3


Silverberg, Hon. Kristen, Former Assistant Secretary of State for 
  International Organization Affairs, Washington, DC.............     4
    Prepared statement...........................................     6


Malinowski, Tom, Former Assistant Secretary of State for 
  Democracy, Human Rights, and Labor, Washington, DC.............     8
    Prepared statement...........................................    10


Neuer, Hillel, Executive Director, U.N. Watch, Geneva, 
  Switzerland....................................................    12
    Prepared statement...........................................    14


Piccone, Ted, Senior Fellow, The Brookings Institution, 
  Washington, DC.................................................    20
    Prepared statement...........................................    23


              Additional Material Submitted for the Record

The Committee Received No Response From Kristen Silverberg for 
  the Following Questions Submitted by Senator Todd Young........    42


Responses of Tom Malinowski to Questions Submitted by Senator 
  Todd Young.....................................................    42


The Committee Received No Response From Hillel C. Neuer for the 
  Following Questions Submitted by Senator Todd Young............    43


Responses of Ted Piccone for Questions Submitted by Senator Todd 
  Young..........................................................    44


                             (iii)        

 
                     ASSESSING THE UNITED NATIONS 
                          HUMAN RIGHTS COUNCIL

                              ----------                              


                         THURSDAY, MAY 25, 2017

                               U.S. Senate,
        Subcommittee on Multilateral International 
       Development, Multilateral Institutions, and 
 International Economic, Energy, and Environmental 
                                            Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Todd Young, 
chairman of the subcommittee, presiding.
    Present: Senators Young [presiding] and Merkley.

             OPENING STATEMENT OF HON. TODD YOUNG 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Good afternoon. This hearing of the Senate 
Foreign Relations Subcommittee on Multilateral International 
Development, Multilateral Institutions, and International 
Economic, Energy, and Environmental Policy will come to order.
    Today's hearing represents our subcommittee's second 
hearing of the year. I, of course, want to thank the ranking 
member, Senator Merkley, for joining me again to convene this 
hearing.
    The purpose of today's hearing is to assess the United 
Nations Human Rights Council. We are joined by an impressive 
panel of witnesses this afternoon. I would like to welcome 
them.
    The Honorable Kristin Silverberg, who previously served as 
the Assistant Secretary of State for International Organization 
Affairs. Welcome to you.
    The Honorable Tom Malinowski, who previously served as 
Assistant Secretary of State for Democracy, Human Rights, and 
Labor. Good day, sir.
    Mr. Hillel Neuer, who is executive director of U.N. Watch. 
I will note that Mr. Neuer traveled from Europe to testify 
today, and I am very grateful for his willingness to be here. 
Thank you.
    And last, but certainly not least, we are joined by Mr. Ted 
Piccone, a senior fellow at the Brookings Institution. Thank 
you.
    So I welcome each of you. Before beginning our assessment 
of the United Nations Human Rights Council, perhaps it is 
helpful to step back for a moment and assess the role that the 
promotion of human rights should play in our foreign policy.
    The Declaration of Independence declared that, ``We hold 
these truths to be self-evident, that all men are created 
equal, that they are endowed by their Creator with certain 
unalienable Rights, that among these are Life, Liberty and the 
pursuit of Happiness.''
    While we know that our Nation has spent much of our history 
trying to narrow the gap between these self-evident truths and 
our daily reality, it is noteworthy that our Founders used the 
phrase ``all men.'' Today, we would expect they would say ``all 
men and women,'' but the point is that our Founders did not 
suggest these inalienable rights were limited to just 
Americans.
    If we accept the fact that these rights are not reserved 
for Americans alone but are instead universal rights, then we 
have an obligation to ensure these universal human rights 
inform not only our domestic policy, but our foreign policy as 
well.
    Yet promoting and protecting human rights internationally 
is not just a matter of principle or just a matter of morality. 
Promoting and protecting universal human rights overseas also 
helps secure American national security interests.
    As Ambassador Haley has emphasized in her U.N. Security 
Council remarks, most recently on April 18, the protection of 
human rights is often deeply intertwined with peace and 
security. As she observes, human rights violations can often 
serve as the trigger for a conflict.
    As an example, Ambassador Haley cited the fact that the 
terrible Syrian conflict that has generated so many threats to 
American national security, not to mention heart-wrenching 
human suffering, started when the Assad regime failed to 
respect the universal human rights of a group of young boys 
opposed to the regime.
    So, in short, both our principles and our interests, our 
values and our security, are advanced when the promotion of 
universal human rights figures prominently, not peripherally, 
in U.S. foreign policy. It is both wrong and shortsighted to 
believe that we can better protect our national security 
interests by ignoring or sidelining human rights.
    Perhaps that is why the United Nations Charter that our 
country played a pivotal role in establishing states clearly in 
Article 1 that one of the four purposes of the U.N. is to 
promote and encourage respect for human rights and for 
fundamental freedoms for all without distinction as to race, 
sex, language, or religion. American national security 
interests are best-served when the United Nations effectively 
fulfills this core purpose.
    That is why we want the U.N. Human Rights Council to 
effectively fulfill its responsibility of promoting universal 
respect for the protection of all human rights and fundamental 
freedoms for all. So as Ambassador Haley prepares to go to 
Geneva in June for the 35th regular session of the U.N. Human 
Rights Council, it is timely and appropriate to assess how the 
council is doing in the fulfillment of its mission and to ask 
what U.S. policy should be toward the council.
    While I look forward to listening to the expert testimony 
of our esteemed witnesses, I would like to make two quick and 
initial observations.
    First, as Deputy Assistant Secretary of State for 
International Organization Affairs Erin Barclay said in Geneva 
in March, regrettably, too many of the actions of this council 
do not support those universal principles. Indeed, they 
contradict them. Perhaps this is not surprising. Some of the 
world's worst human rights abusers are on the council. China 
and Cuba are members, for example. Yet, according to Freedom 
House, they have the worst or second to worst rankings possible 
for political rights and civil liberties.
    Second, the council has exhibited a systematic, reflexive, 
and, frankly, shameful bias against Israel, our closest and 
most reliable ally in the Middle East. Israel is the only 
country in the world that is subjected to a permanent agenda 
item. When countries with the worst possible human rights 
records sit on the Human Rights Council, they seek to deflect 
attention from their egregious human rights abuses and attempt 
to pass judgment on Israel, a country that boasts a vibrant, 
liberal democracy. The credibility of the council is further 
undermined, and the United States must not be silent.
    America, I believe, is at its best when it models and 
promotes respect for universal human rights. We should expect 
the same from the U.N. Human Rights Council and its members.
    So with those thoughts in mind, I would now like to call on 
our ranking member, Senator Merkley, for his opening remarks.
    Senator Merkley.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you, Mr. Chairman, for holding this 
hearing.
    And thank you to our distinguished guests for bringing your 
expertise here to the halls of the U.S. Senate.
    Promoting human rights is a longstanding bipartisan pillar 
of American foreign policy, essential not only to our foreign 
policy, but to who we are as Americans. President Kennedy, just 
months prior to his assassination, affirmed that our Nation 
``was founded on the principle that all men are created equal 
and that the rights of every man are diminished when the rights 
of one man are threatened.''
    President Reagan in a 1986 speech before the United Nations 
General Assembly said, ``Respect for human rights is not social 
work. It is not merely an act of compassion. It is the first 
obligation of government and the source of its legitimacy. It 
also is the foundation stone in any structure of world peace.''
    The United States has used the United Nations as a platform 
to advance basic human rights since its inception. As a 
universal body, the United Nations holds great promise, but 
advancing human rights in an intergovernmental body with 
autocrats determined to hide and deflect their abuses has been 
difficult.
    The Soviet Union pushed hard against Eleanor Roosevelt at 
the original U.N. Commission on Human Rights, but she 
persevered. Her leadership led to the adoption of the Universal 
Declaration of Human Rights, which in turn inspired Lech 
Walesa, Nelson Mandela, and other champions of freedom and 
human dignity.
    The United Nations Human Rights Council, like its 
predecessor, remains a troubling forum for the United States. 
Its membership, as my chairman pointed out, includes countries 
with appalling human rights records determined to shield some 
of the world's worst human rights abusers from scrutiny. Its 
memberships' excessive and disproportionate focus on Israel is 
shameful, inexcusable, and cheapens the body.
    The Human Rights Council seems to work better, however, 
when America leads. Appalling human rights abuses in North 
Korea have been documented and added to the agenda of the U.N. 
Security Council. The rights and dignity of LGBT individuals 
have been affirmed. Human rights abuses in Iran have been 
uncovered. Attempts to unfairly malign Israel have been 
countered.
    Speaking to the Universal Declaration of Human Rights, 
President Reagan said, ``That document, a triumph for the 
higher aspirations of mankind, is but words on paper unless we 
are willing to act to see that it is taken seriously.'' He 
continued, ``We owe it to ourselves and to those who sacrificed 
so much for our liberty to keep America in the forefront of 
this battle.''
    I look forward to hearing our witnesses' views on where the 
United Nations Human Rights Council is working, where it is 
falling short, and how it can do better. And I look forward to 
hearing your views on how the United States can continue to 
lead on human rights, both at the U.N. Human Rights Council and 
in other ways.
    Thank you, Mr. Chairman.
    Senator Young. I want to welcome our witnesses again. Your 
full written statements will appear in the record. I ask you to 
summarize those statements in roughly 5 minutes, about 5 
minutes each, if you can.
    For opening statements, let's go in the order that I 
introduced you.
    Ms. Silverberg.

    STATEMENT OF HON. KRISTEN SILVERBERG, FORMER ASSISTANT 
  SECRETARY OF STATE FOR INTERNATIONAL ORGANIZATION AFFAIRS, 
                         WASHINGTON, DC

    Ms. Silverberg. Mr. Chairman, Ranking Member Merkley, thank 
you for the opportunity to appear before you today to assess 
the record of the Human Rights Council. It is an honor to 
appear with the distinguished experts joining me on this panel.
    I served as Assistant Secretary of State from 2005 to 2008, 
including during the General Assembly debate over the 
resolution creating the Human Rights Council. When the 
resolution creating the council failed to meet our core 
objectives, we voted against the resolution and decided not to 
seek membership.
    We did not approach that decision lightly. President Bush 
had made the promotion of democracy and human rights a core 
objective of U.S. policy. Consistent with that policy, we 
worked to support the inclusive government in Iraq, to defend 
the rights of women in Afghanistan. We worked to focus 
international attention and sanctions when appropriate on 
abusive regimes in Burma, Cuba, and Zimbabwe, and to support 
civil society in countries like Venezuela, Egypt, and Bolivia.
    President Bush was the first head of state to call the 
tragedy in Darfur genocide. He put new resources behind efforts 
to support democratic reforms, and he personally met with 
dissidents from 35 countries.
    Engagement at the U.N. was a critical part of this 
strategy. We supported the Office of the High Commissioner on 
Human Rights, had an active agenda in the Third Committee of 
the General Assembly. We supported efforts to include human 
rights-related issues on the agenda of the Security Council, 
drawing the link between peace and security and human rights, 
just as Ambassador Haley had, and added Burma to the agenda for 
the first time. And we worked through the Security Council to 
support democracy in Lebanon and to expand U.N. peacekeeping 
operations.
    There was no question in my mind that, as part of this 
effort, we would benefit from a new, credible, multilateral 
institution capable of supporting countries attempting to 
reform, and of responding decisively to violations of human 
rights. It was also clear to me that the U.N. Human Rights 
Council, as constituted in 2006, would not be that institution.
    There are a number of issues, but most particularly, U.N. 
negotiators and the General Assembly rejected proposals to 
ensure credible membership. There are a number of ways to help 
ensure that countries joining the council had a good-faith 
commitment to advancing and defending human rights--a super-
majority requirement, a ban on regional consensus candidates, 
even a provision to bar some of the worst human rights 
offenders from membership. The negotiators rejected all of 
them.
    The potential for the Human Rights Council was further 
undermined when, at the end of the council's first year, a few 
members decided to adopt, in the dark of night, a permanent 
agenda item on Israel, and then to deny Canada, a member of the 
council, its procedural right to vote against the decision. The 
adoption of Item 7 has been a stain on the council ever since.
    And I will point out that Item 7 was originally adopted in 
2007 when the Bush administration was not participating in the 
council but was reaffirmed in 2011 when the Obama 
administration was a member.
    The council has done good work, to be clear, on issues like 
North Korea and Burma. However, the Human Rights Council runs 
on horse-trading. When the U.S. is running an initiative in the 
council, it typically ends up compromising on something else. 
And that something else is too often our support for Israel.
    So where does that leave the Trump administration in light 
of the 2016 election of the U.S. to the Human Rights Council? 
Even the most skilled effort at renegotiating terms for the 
Human Rights Council will be challenging, but I believe the 
Trump administration should try with a date certain to assess 
whether progress has been made and whether the Human Rights 
Council can serve as a credible and vigorous voice on human 
rights. Failing key progress, I believe the administration 
should leave.
    There are a number of reform targets the administration 
should consider. I will raise just a couple examples.
    One is, during the fall General Assembly session, the 
administration could put forth an amendment to the institution-
building package to remove Item 7 from the council's agenda. I 
expect we could talk more about that.
    Second, the U.S. could secure agreements from regions not 
to run consensus candidates to give the General Assembly 
choices in electing Human Rights Council members.
    And, third, and this relates to the Office of the High 
Commissioner for Human Rights, I believe that the United States 
should ask to put senior Americans in key posts, in particular 
to try to fill the Office of the Chief of the Human Rights 
Council Branch.
    Whatever decision the Trump administration makes on this 
issue, I hope it will find ways to reaffirm the U.S. commitment 
to serving as the world's leading defender of freedom and human 
rights.
    I applaud the subcommittee for its focus on this issue, and 
look forward to your questions.
    [The statement of Ms. Silverberg follows:]

       Prepared Statement of Ambassador (Ret.) Kristen Silverberg

    Mr. Chairman, Members of the Subcommittee:
    Thank you for the opportunity to appear before you today to discuss 
the record of the U.N. Human Rights Council (UNHRC), and particularly 
to address the UNHRC's persistent anti-Israel bias. It's an honor to 
appear with the distinguished experts joining me on this panel.
    I served as Assistant Secretary of State for International 
Organization Affairs from 2005-2008, including during the General 
Assembly debate over the resolution creating the UNHRC. When the 
resolution creating the UNHRC failed to meet our core objections, we 
voted against the resolution and decided not to seek UNHRC membership.
    The Bush administration did not approach that decision lightly. 
President Bush had made the promotion of democracy and human rights a 
core objective of U.S. policy. In his words, he made it the:

        policy of the United States to seek and support the growth of 
        democratic movements and institutions in every nation and 
        culture, with the ultimate goal of ending tyranny in our 
        world.\1\
---------------------------------------------------------------------------
    \1\ President Bush's Second Inaugural Address, Jan. 20, 2005.

    Consistent with that policy, President Bush committed to support 
inclusive government in Iraq and to defend the rights of women in 
Afghanistan. He worked to focus international attention, and sanctions 
when appropriate, on abusive regimes in Burma, Cuba, and Zimbabwe and 
to support civil society in countries like Venezuela, Egypt, and 
Bolivia. He was the first head of state to call the tragedy in Darfur a 
``genocide.'' He put new resources behind the efforts to support 
democratic reforms, including through the Millennium Challenge Account 
and the budget for the National Endowment for Democracy. He personally 
met with dissidents from 35 countries.
    Engagement at the U.N. was a critical part of this strategy. The 
U.S. was the largest funder of the Office of the High Commissioner on 
Human Rights. We had an active human rights agenda in the 3rd Committee 
of the General Assembly. We supported efforts to include human rights-
related issues on the agenda of the Security Council, including by 
adding Burma to the agenda for the first time. And we worked through 
the Security Council to support democracy in Lebanon and to expand U.N. 
peacekeeping operations.
    There was no question in my mind that, as part of this effort, we 
would benefit from a new, credible, multilateral institution capable of 
supporting countries attempting to reform and of responding decisively 
to violations of human rights. It was also clear to me that the UNHRC 
would not be that institution. It was set up from the beginning to 
fail.
    In particular, U.N. negotiators and the General Assembly rejected 
proposals to ensure a credible membership. There were a number of ways 
to help ensure that countries joining the Council had a good faith 
commitment to advancing and defending human rights--a supermajority 
requirement, a ban on regional consensus candidates, even a provision 
to bar some of the worst human rights offenders from membership. The 
negotiators rejected all of them.
    The potential for the UNHRC was further undermined when, at the end 
of the Council's first year, a few members decided to adopt--in the 
dark of night--a permanent agenda item on Israel and then to deny 
Canada, a member of the Council, its procedural right to vote against 
the decision. The adoption of Item 7 has been a stain on the Council 
ever since.
    It's worth pointing out, that the Human Rights Council has not only 
failed according to the Bush administration's objectives, but according 
to the Obama administration's objectives as well. In 2011, during the 
UNHRC's five-year review process, Secretary Clinton outlined three key 
reform objectives:

    <bullet> First, the Council must . . . demonstrate clearly that it 
possesses the will to address gross abuses [and] hold violators 
accountable . . .

    <bullet> Second, the Council must apply a single standard to all 
countries based on the Universal Declaration of Human Rights. It cannot 
continue to single out and devote disproportionate attention to any one 
country.

    <bullet> And third, the Council needs to abandon tired rhetorical 
debates and focus instead on making tangible improvements in people's 
lives.\2\
---------------------------------------------------------------------------
    \2\ Remarks of Secretary Clinton at the Human Rights Council in 
Geneva, Feb. 28, 2011.

    Despite eight years of concerted engagement by the Obama 
administration, the UNHRC failed to take action in numerous critical 
cases, maintained its obsession with Israel, and continued to favor 
hollow thematic resolutions over action to address gross and systemic 
abuses.
    Supporters of U.S. participation in the Council will cite positive 
work the Council has done on issues like North Korea and Burma. 
However, the UNHRC runs on horse trading. When the U.S. is running an 
initiative in the Council, it typically ends up compromising on 
something else, and that something else is too often our support for 
Israel.
    So where does that leave the Trump administration in light of the 
2016 election of the U.S. to the UNHRC?
    Even the most skilled effort at reforming the UNHRC will be 
challenging, but I believe the Trump administration should try, with a 
date certain to assess whether the UNHRC can serve as a credible and 
vigorous voice on human rights. Failing key progress, the 
administration should leave.
    There are a number of reform targets the Trump administration could 
consider; I will raise just a few, achievable examples:

    <bullet> First, during the fall General Assembly session, the Trump 
administration should put forward an amendment to the Institution 
Building package to remove Item 7 from the Council's agenda. Securing 
sufficient support for the amendment will not be easy, but we would 
enjoy strong backing in the lobbying effort from the U.K. and 
Australia. The Trump administration is persuaded that cooperation 
between Arab countries and Israel has created new opportunities for 
breakthroughs in the region. This would be one very modest 
demonstration of the potential for a new relationship, and the Trump 
administration should use its considerable influence with Israel's 
neighbors to test the case.

    <bullet> Second, the U.S. could secure agreements from regions not 
to run consensus candidates--to give the General Assembly choices in 
electing UNHRC members. This wouldn't guarantee an improved membership, 
but it might help and it should deter candidates with questionable 
records from running and risking a loss.

    <bullet> Third, the U.S. should insist on senior American hires in 
the Office of the High Commissioner for Human Rights (OHCHR). One 
particular position the U.S. should fill is the Chief of the Human 
Rights Council Branch, who functions effectively as the Secretariat and 
Parliamentarian of the Human Rights Council.

    <bullet> With respect to the OHCHR, the U.S. should also insist on 
measures to put teeth behind U.N. whistleblower protections. This is, 
of course, an issue that extends far beyond the OHCHR, though 
retaliation by that office against whistleblower Anders Kompass was a 
particularly egregious case. In addition to tighter procedures to 
protect whistleblowers, the U.N. should adopt tougher sanctions against 
U.N. staff who violate them.

    The UNHRC was meant to be one part of a broader U.S. strategy to 
advance freedom and human rights around the world, which serves both 
our interests and our values. The essential point for the U.S. is 
commitment to that effort, not the particular vehicle we use to do it. 
Whatever decision the Trump administration makes on the UNHRC, the U.S. 
should sustain its historic role as a forceful defender of human 
rights.
    I applaud the Subcommittee for its focus on this issue and look 
forward to your questions.

    Senator Young. Thank you, Ms. Silverberg.
    Mr. Malinowski.

  STATEMENT OF TOM MALINOWSKI, FORMER ASSISTANT SECRETARY OF 
  STATE FOR DEMOCRACY, HUMAN RIGHTS, AND LABOR, WASHINGTON, DC

    Mr. Malinowski. Thank you, Senator Young, Senator Merkley, 
for holding this hearing and for inviting me to testify.
    I will argue today that the U.N. Human Rights Council is a 
highly imperfect institution that has, nonetheless, improved 
under American leadership. It is more useful than it might at 
first appear. And we have become increasingly good at advancing 
our interests and ideals there. Rather than ceding this 
battlespace to our adversaries, we should continue to fight to 
make it better. We should focus relentlessly and pragmatically 
on winning and not withdrawing.
    In saying that, I will acknowledge that much of the 
criticism of the council over the years has been justified, 
including all of the items that you and Ms. Silverberg 
mentioned--the membership of the council, the presence of human 
rights violators among its members, the outrageous bias against 
Israel that it has displayed.
    I have noticed something else over the years, which has 
made me less skeptical and increasingly convinced that the 
council is an important institution. I have noticed that our 
ideological adversaries take a great interest in it, countries 
like Cuba and China and Russia and Egypt and Pakistan. They 
dedicate enormous diplomatic resources to try to influence this 
body's decisions.
    Why is that, especially given the fact that all it can do 
is issue paper resolutions? It has no power to compel anybody. 
I think the reason is that, at bottom, the fight for human 
rights is a contest of ideas.
    We hold, and others hold, the idea that you eloquently 
stated, that human rights are universal, that every country has 
a duty to uphold them. That idea is profoundly threatening to 
authoritarian governments around the world because it threatens 
their legitimacy.
    I am sure you have noticed that when the U.S. Congress 
passes paper resolutions condemning some country for human 
rights abuses, it does not get a lot of attention here but huge 
attention in those countries, and you are lobbied very hard by 
their representatives not to do it. Those resolutions only 
speak for the United States. When this body speaks, it speaks 
for the whole world. That is a very, very powerful thing.
    This is why every session of the Human Rights Council, 
courageous human rights activists from all around the world, 
sometimes at great personal risk, travel there to testify, and 
it is why the bad guys try so hard to silence it.
    I think if it is important to them, it ought to be 
important to us to stand with the good guys and to try to help 
them win these battles in Geneva.
    I think where we have dedicated the time and the diplomatic 
resources to do that, we have been pretty successful. Since 
2009, I would say we have won virtually every winnable fight 
that we have put our minds to winning at the Human Rights 
Council. It is not good enough yet, but we have shown that we 
can win.
    In 2006, in its first year in existence when the United 
States was not a member, the Human Rights Council passed 
exactly zero resolutions concerning human rights in specific 
countries other than Israel. Since we rejoined in 2009, the 
situation has changed dramatically. In 2015, it passed 26 such 
resolutions, 22 in 2016. Some of them have been mentioned--the 
establishment of the historic Commission of Inquiry on North 
Korea, the condemnations of Iran, South Sudan, the votes we 
have won on Syria, which Russia fought really, really hard to 
defeat and we won those fights, on Ukraine, the same thing. Sri 
Lanka, I was involved as a diplomat in trying to promote the 
democratic transition that is underway in Sri Lanka away from 
civil war and dictatorship, and I can attest that the 
resolutions passed by the council were absolutely critical in 
helping along that diplomatic process.
    There are many, many other examples we can cite. I think 
these are real American diplomatic achievements.
    Now the membership remains a problem, particularly because 
of the system of closed slates that some regions run. But where 
there have been competitive elections recently, the worst human 
rights violators have, in some cases, done pretty badly. Most 
dramatically, last year, Russia ran for membership, and 
everyone assumed that a permanent member of the Security 
Council--permanent members, by tradition, always get what they 
want in the U.N. system. Russia lost because of its horrible, 
horrific conduct in Syria. That was a stunning triumph, I 
think.
    With respect to Israel, the situation, I would say, remains 
unacceptable, but I think we have made some modest progress 
through our presence. In the early years of the council, 
virtually every resolution that it passed was on Israel. That 
share is now way, way down. There were, I think, about six 
special sessions on Israel in the years when we were not a 
member, only one in the years when we have been.
    The progress that we still need to make on that issue, I 
would make I think this point. We need to focus on who is 
actually to blame, and who is to blame is not this institution, 
which has no will of its own, but the member countries who are 
pushing these anti-Israel institutions.
    Now, who are they? Egypt, Pakistan, Saudi Arabia, Qatar, 
the United Arab Emirates, close U.S. partners. They get a lot 
of assistance from the United States. And yet, we never seem to 
hold them accountable for their behavior in Geneva. We 
criticize the council but not the member states that are 
responsible.
    Can we make this situation better by threatening to leave? 
Well, if we found ourselves in a situation where we could no 
longer get anything useful done at the Human Rights Council, I 
would say sure, let's leave. But I do not think threatening to 
leave gives us any leverage for this simple reason: The 
countries that are responsible for most of the mischief in 
Geneva want us to leave. So threatening to leave would be kind 
of like telling a bunch of criminals that, if you keep robbing 
banks, the police are going to go on strike. I would rather 
have the police there, well-resourced, on-duty, fighting, and 
focusing on winning.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Malinowski follows:]

                  Prepared Statement of Tom Malinowski

    Chairman Young, Senator Merkley, thank you for holding this hearing 
and for inviting me to testify. I will argue today that the U.N. Human 
Rights Council is an imperfect institution that has nonetheless 
improved thanks to U.S. leadership. It is far more useful than it might 
at first glance appear, and we have become increasingly good at 
advancing our interests and ideals there. Rather than ceding this 
important battle space to our adversaries, we should continue to fight 
to make it better. Our focus should be on winning, not retreating.
    In saying that, I will acknowledge that much of the criticism of 
the Council over the years--or, more precisely, of how certain 
countries try to twist its agenda--has been justified. I've been 
skeptical myself at times that much can be accomplished there. Some of 
the world's worst human rights violators--Libya under Qaddafi, 
Zimbabwe, Saudi Arabia, Egypt, Cuba, and others--have been members of 
the Council or its predecessor, the U.N. Human Rights Commission, and 
even taken leadership roles. The bias against Israel has been real and 
outrageous, though we have managed to ease it somewhat; Israel remains 
the only country in the world to which the Council dedicates its own 
stand-alone agenda item. We ought to be angry about these things. They 
do undermine the Council's credibility. And so it's fair to ask, as we 
have from the start, whether our engagement in this body is right, 
especially since the good it does consists solely of issuing 
resolutions and statements that have no power to compel anyone to do 
anything.
    But I've noticed something else over the years, something that has 
made me increasingly convinced that the Human Rights Council matters. 
What I've noticed is that our ideological adversaries--countries that 
want to cover up their human rights abuses and challenge our view that 
freedom is a universal aspiration--take a great interest in it. Some of 
the countries I mentioned--Cuba, Egypt, as well as China and Russia--
dedicate great diplomatic resources to try to influence the Council's 
decisions. Why is that? Why do they care so much, especially since, as 
I mentioned, all the Council can do is to issue pieces of paper?
    The reason, I think, is that at bottom, the fight for human rights 
is a contest of ideas. We and our allies and the vast majority of 
ordinary people around the world believe that the rights to speak one's 
mind and to elect one's leaders and to be free from torture, abuse and 
discrimination are universal, and that every government has a legal 
duty to respect them. But there are governments around the world that 
are profoundly threatened by this idea, because it challenges their 
legitimacy, their argument that they have a right to rule despite being 
unelected and cruel to their people. They argue that human rights are 
relative, that every country defines them in different ways based on 
their culture, history and political system, a view that they have 
tried to persuade the Human Rights Council to adopt.
    Dictators, we should remember, are very insecure people. You have 
surely noticed that when the U.S. Congress, speaking only for the 
United States, considers paper resolutions criticizing repression in 
foreign countries, those resolutions often garner huge attention in 
those countries, whose representatives lobby you heavily not to pass 
them. When the Human Rights Council condemns a repressive government, 
it speaks for the whole world. There can be no more authoritative 
statement that what dictators do is wrong and that they have no right 
to be doing it. That's why dissidents and human rights activists from 
China to Bahrain to Azerbaijan to Venezuela travel to Geneva, sometimes 
at great personal risk, to tell their stories and urge the Council to 
speak out. That's why their oppressors have tried so hard (with growing 
frustration, I'm happy to say) to silence the body, or to persuade it 
to redefine the meaning of human rights altogether.
    If this body matters so much to all of them, then it stands to 
reason that it should matter to us. Without any illusions about its 
weaknesses, the most powerful country in the world should be there, 
helping the good guys win and making the bad guys lose.
    Where we have dedicated the time and diplomatic resources required, 
Mr. Chairman, we have been very successful in doing this since 
rejoining the Human Rights Council in 2009. There is much more work to 
be done to make the institution what it should be, but thus far, we 
have won virtually every winnable fight we have put our minds to 
winning. This has made a difference in many places, and on many issues.
    In 2006, in its first year in existence when the United States was 
not a member, the Human Rights Council passed exactly zero resolutions 
concerning human rights abuses in specific countries, other than 
Israel. Since we rejoined in 2009, the situation has changed 
dramatically--the Council passed 26 such resolutions in 2015, 22 in 
2016, and it is keeping up that pace in 2017. Every objective observer 
has acknowledged that American leadership has been key to this 
progress, because of the skill of our diplomats in Geneva, and our 
unparalleled ability to lobby governments in capitals all over the 
world.
    With our engagement, the Council has:

    <bullet> Created an historic Commission of Inquiry into human 
rights abuses in North Korea, which established that Kim Jong Un and 
his government are responsible for crimes against humanity, and put the 
issue of human rights abuses in North Korea on the international agenda 
for the first time.

    <bullet> Passed a series of resolutions urging accountability and 
reconciliation in Sri Lanka, which I can attest from my own diplomatic 
experience have played a critical role in encouraging that country's 
hopeful democratic transition and difficult reckoning with its past.

    <bullet> Repeatedly condemned human rights abuses by the government 
of Iran, and created a special rapporteur to document them.

    <bullet> Passed resolutions on Syria and Ukraine that defeated 
Russia's efforts to defend its actions and allies in those countries.

    <bullet> Established a Commission on Human Rights in South Sudan, 
which has collected evidence that can be used to hold accountable 
leaders responsible for atrocities there.

    <bullet> Held emergency special sessions to respond to crises from 
Burundi, to Syria, to Libya, to Nigeria, where it focused on the crimes 
committed by Boko Haram.

    <bullet> Endorsed strong definitions of freedom of expression and 
belief, overturning past decisions pushed by countries like Egypt and 
Pakistan that justified anti-blasphemy laws and curbs on speech that 
might be deemed offensive to a religious group.

    <bullet> Endorsed our view that everyone in the world should have 
access to an uncensored internet.

    <bullet> Embraced our position--against strong opposition from some 
countries--that LGBT people have human rights and should not be subject 
to violence or discrimination.

    <bullet> Continued to require all countries in the world, including 
Russia and China, to answer tough questions about their human rights 
records as part of the Universal Periodic Review (UPR) process.

    Even when we are unable to pass a resolution concerning a 
particular country--and yes, some repressive countries have enough 
friends and clout at the U.N. to prevent that--we have been able to use 
Council sessions in Geneva to mobilize joint actions. Last year, for 
example, we persuaded a number of like-minded countries to join a tough 
statement condemning human rights abuses in China, the first 
multilateral statement on that subject at the U.N. in years. The 
Chinese government was stunned, and launched a global diplomatic 
campaign to persuade countries never to sign such a document again, 
which of course makes me think that we should absolutely try to do it 
again.
    The membership of the Council remains a problem, chiefly because 
countries are elected on regional slates, and some regions (including, 
I'm afraid, our own--the ``Western Europe and Other Group'') run closed 
slates, denying U.N. members the chance to vote for the best candidates 
and against the worst. But where competitive elections are held, the 
worst human rights violators have tended to lose more often than not. 
Last year, Russia ran for membership and lost--an extraordinary result, 
given the unwritten rule at the U.N. that permanent members of the U.N. 
Security Council serve on whatever bodies they want, and a very hopeful 
one.
    We have also made modest progress in combatting the Council's 
disproportionate focus on Israel. When the Council was created in 2006, 
and we weren't a member, only Canada objected to the special agenda 
item on Israel; today, almost all Western countries join the U.S. in 
boycotting the session. In the years when the U.S. was not a member, 
more than half of all country-specific resolutions targeted Israel; 
that share is now below 20%. This is still unacceptable. But we should 
remember that the fault lies not with the institution per se, which has 
no will of its own, but with the member countries that push these 
resolutions. Who are they? Among others, Pakistan, Egypt, Saudi Arabia, 
Qatar, the UAE, Iraq--close U.S. partners, some of which receive a 
great amount of aid from the United States. It's easy to blame the U.N. 
It would be more honest and effective to hold accountable the 
governments actually responsible, yet we never seem to do so.
    I would add that while we must make more progress on this issue, 
threatening to walk away from the Council is not going to give us 
leverage to achieve the reforms we want. The reason for this is, 
simply, that the countries most responsible for the bad things that 
happen at the Human Rights Council and for opposing the good things, 
would love to see us walk away, since we're the main impediment to 
their success. Threatening to leave is like telling a bunch of 
criminals that if they don't stop robbing banks, the police are going 
to go on strike. The obvious answer is to dedicated more cops with more 
resources on the beat, not to cede the field to the bad guys.
    I'd like to close by adding one caveat: success at the Human Rights 
Council is achievable, but it depends on two things that are in doubt 
right now.
    First, as I've suggested, it requires dedicating diplomatic 
resources. Our diplomats are extremely good at multilateral diplomacy. 
They know how to win when we tell them that something matters. But 
winning at the Human Rights Council and other U.N. bodies requires a 
whole of State Department effort. We need to be pressing not just in 
Geneva but in capitals around the world, and at all levels, from 
embassies making demarches to our Assistant Secretaries and Secretary 
of State making phone calls, to mobilize votes for resolutions we 
support. But we don't have a whole of State Department right now--not 
with so many positions unfilled, not with proposed budget cuts that 
would eviscerate our ability to advance our interests in all but a few 
countries. To win at the U.N., we need to pay attention to every 
country, not just the few that are most obviously important to our 
national security.
    Second, it should go without saying that success at the Human 
Rights Council requires that we care about human rights. Support for 
human rights and democracy around the world has been a bipartisan 
tradition, one of the few unifying causes in our politics, and central 
to our conception of America's role in the world. But right now, with 
our Secretary of State saying that promoting human rights is a value 
but not a policy; with our president expressing admiration for 
authoritarian strongmen and publicly announcing that we will no longer 
``lecture'' them about their treatment of their people, it is very much 
in doubt.
    Around the world today, Mr. Chairman, people are wondering not 
whether the U.N. Human Rights Council will champion human rights, but 
whether the United States will continue to do so. It is answering that 
question that deserves our most urgent attention today.

    Senator Young. Thank you, sir.
    Mr. Neuer.

        STATEMENT OF HILLEL NEUER, EXECUTIVE DIRECTOR, 
                U.N. WATCH, GENEVA, SWITZERLAND

    Mr. Neuer. Thank you, Chairman Young, Ranking Member 
Merkley. Thank you for inviting me to testify on the important 
matter of assessing the United Nations Human Rights Council 
ahead of the visit of Ambassador Haley to Geneva. Indeed, we 
will welcome her visit very much.
    I believe that the U.S. should remain on the council not 
because this body is upholding its mission to promote and 
protect human rights but on the contrary, because the Human 
Rights Council is a dangerous place. And I believe, for America 
to promote its values and the founding values of the United 
Nations, America should remain. It should fight. It should go 
on the record. It should lead its allies. It should call out 
abuses.
    And this is a body, whether we like it or not, that 
influences the hearts and minds of hundreds of millions of 
people, and we should not abandon that arena. And if possible, 
on those rare occasions when an alliance can be found to 
spotlight abusers, America should lead that effort.
    That is concerning values. There are also interests. 
America has interests to stay on the council. It is an 
influential arena. There is a reason why countries around the 
world vie to win a seat. America has a seat, and I think it 
would be foolish to give up that position of influence.
    On human rights, the United States has to lead by what it 
says and what it does. That is why I criticized the President 
when he called certain media institutions the enemy. When he 
did so, I happened to be next to Can Dundar, a Turkish 
journalist who was called the enemy by his President, and, soon 
after, he was shot at and almost killed in Turkey. We honored 
him recently in Geneva.
    America has to lead on human rights.
    Of course, when we talk about the media, it is legitimate 
to question and criticize certain articles that appear in the 
media. One, which I will challenge today, is an article that 
appeared in March of this year in the New York Times by their 
U.N. correspondent, which expressed extraordinary skepticism 
concerning Ambassador Haley when she said that the Human Rights 
Council was so corrupt. I quote from the article. ``She 
dismissed the Human Rights Council as 'so corrupt,''' without 
offering evidence. That skepticism remained in the article.
    So, yes, the Human Rights Council has taken action on a 
number of cases. North Korea is one of them. Yes, there are 
many good people who work in the related Office of the High 
Commissioner for Human Rights, which supports the work of the 
council. And there are good special rapporteurs who are 
independent experts who do good work to spotlight abuses. But 
on so many levels, the Human Rights Council is so corrupt. And 
ahead of Ambassador Haley's visit, allow me to present some of 
that evidence.
    There is corruption that is financial. One gentleman, the 
longest serving U.N. human rights expert in Geneva, is a man 
named Jean Ziegler who has been there for about 17 years. You 
cannot get rid of the guy. He was special rapporteur on hunger, 
and now he is on their advisory committee. He was recently 
celebrated by the Human Rights Council at their opening high-
level session. There was a film made about his life where the 
head of the Human Rights Council Branch, the chief of the HRC 
branch of the Office of High Commissioner, went to sing his 
praises.
    Jean Ziegler is someone who was appointed by the Cubans 
around the year 2000. He created the Muammar Qaddafi Human 
Rights Prize in 1989. He went on to manage that prize from 
Geneva. He boasted about it in Time magazine, saying that he 
had $10 million from the Qaddafi government to manage this 
prize, which they gave to Chavez, Castro, Louis Farrakhan, and 
a Holocaust denier in the year 2002, in the same year that Jean 
Ziegler himself, as a U.N. expert, went to Libya and won that 
prize, which, by the way, came with $100,000 per year.
    He denied it for 10 years. When we exposed the video of him 
receiving the prize, he admitted it. He said the Office of the 
High Commissioner made him give back the prize. But the money, 
no one has ever investigated what he did with that money. Not 
surprisingly, Ziegler was an ardent advocate opposing sanctions 
on the Qaddafi regime while he was implicated in ties with that 
regime.
    The official of the Human Rights Council who praised 
Zeigler recently, the senior head of the HRC Branch, was 
himself recently accused by a member of his own office of 
having received money from a member of the Arab League to help 
launch his book.
    There was also corruption that is ethical. When Richard 
Falk, who was the special rapporteur on Palestine for 6 years, 
someone who is a leading supporter of the 9/11 conspiracy 
theory, when he finally had to leave because of term limits, 
the day he left, his wife came in, Hilal Elver, as the new 
special rapporteur on hunger. She is not only his wife but also 
a co-collaborator with him on his works, and has accused Israel 
of water apartheid.
    She is the expert on hunger, yet Venezuela, where people 
are starving, she has completely ignored. On the contrary, she 
has tweeted Maduro propaganda, saying that the problems of 
starvation are caused by capitalists and people from the 
outside.
    There is corruption on the commissions of inquiry. The head 
of the recent commission of inquiry on Gaza was a man named 
William Schabas, who was an anti-Israel campaigner for 30 
years. He said that his dream defendant was Benjamin Netanyahu. 
And he was then made the chief of this investigation.
    Today, we released a legal brief, which we submitted to the 
U.N. Secretary-General, where we exposed the fact that one of 
the leading staffers on the Goldstone commission, which is 
relevant because it will be cited in a new report coming out in 
a matter of days at the upcoming June session, a lead staffer 
was a woman named Grietje Baars; she, too, was a senior 
organizer of anti-Israel legal campaigns. She was one of the 
professional objective staffers who played a critical part in 
gathering that report.
    In summary, Mr. Chairman, members of the subcommittee, the 
Human Rights Council was founded on the promise of reform. Now, 
over a decade later, if we look across-the-board, the actions 
that are positive are in the small minority, and the actions 
that are hostile to human rights that single out democracies 
like Israel are in the majority. I believe America should stay 
and fight those injustices.
    Thank you very much.
    [The prepared statement of Mr. Neuer follows:]

                 Prepared Statement of Hillel C. Neuer

    Chairman Young, Ranking Member Merkley, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to testify on the important matter of the performance of the United 
Nations Human Rights Council, the role of U.S. engagement, and possible 
options for reform.
    The primary human rights body of the U.N. is the 47-nation Human 
Rights Council, which was created in 2006 by General Assembly 
Resolution 60/251, with the goal of replacing the Commission on Human 
Rights and redressing its shortcomings.
    How has the council performed in its first decade?
    Let us measure its performance by the yardstick of the U.N.'s own 
standards. These were set forth in 2005 by then-U.N. Secretary-General 
Kofi Annan.
    In calling to scrap the old Commission, Secretary-General Annan 
identified its core failings:

    <bullet> Countries had sought membership ``not to strengthen human 
rights but to protect themselves against criticism or to criticize 
others.''

    <bullet> The Commission was undermined by the ``politicization of 
its sessions'' and the ``selectivity of its work.''

    <bullet> The Commission suffered from ``declining professionalism'' 
and a ``credibility deficit''-- which ``cast a shadow on the reputation 
of the United Nations system as a whole.'' \1\

    Today, almost 11 years later, we must ask: Has the council remedied 
these fatal flaws?
    In creating the council, the U.N. General Assembly made clear its 
expectations for the new body:

    <bullet> Resolution 60/251 of 2006 promised that the new council 
would elect members committed to ``uphold the highest standards in the 
promotion and protection of human rights.''

    <bullet> Those committing gross and systematic violations of human 
rights could have their membership suspended, by a two-thirds majority 
vote.

    <bullet> The council would in its regular work ``address situations 
of violations of human rights, including gross and systematic 
violations.''

    <bullet> A powerful tool was the ability of merely one-third of the 
members, only 16 countries, to convene urgent sessions.

    <bullet> The council's work would be guided by ``universality, 
impartiality, objectivity and non-selectivity.''

    A decade later, where do we stand? Have these expectations been 
met?
    Kofi Annan's call for reform had identified the issue of 
membership, as noted above, as a core failing of the old Commission. 
The entire work of the council stands or falls on the quality of its 
members.
    Sadly, council membership remains dismal. Less than half the 
members meet basic democracy standards of a ``Free'' society as 
measured by Freedom House. The majority are human rights abusers of 
varying degrees.
    Members include: Burundi, China, Congo, Cuba, Egypt, Iraq, Qatar, 
Saudi Arabia, United Arab Emirates, and Venezuela.
    In 2001, speaking of the old Commission, Kenneth Roth of Human 
Rights Watch said this:

        ``Imagine a jury that includes murderers and rapists, or a 
        police force run in large part by suspected murderers and 
        rapists who are determined to stymie investigation of their 
        crimes.'' \2\

    Sadly, a decade after the reform, these words apply even more 
today.
Turning A Blind Eye to Victims
    Given this membership, it should not be surprising that, apart from 
a number of exceptions, the council has regularly turned a blind eye to 
the world's worst human rights violations. The council has failed the 
victims who are most in need of international attention.
Impunity for Worst of the Worst
    <all>  There have been no resolutions for victims in China, despite 
gross, systematic and state-wide repression, the unjust imprisonment of 
Nobel Laureate Liu Xiaobo and democracy leader Wang Binzhang, the 
massacre of Uighurs, and the killing of Tibetans;

    <all>  None for Cuba, where peaceful civic activists are beaten or 
languish in prison, and where the suspicious death of legendary 
dissident Oswaldo Paya remains uninvestigated;

    <all>  None for Zimbabwe, despite ongoing brutality by the Mugabe 
regime;

    <all>  None for Turkey, where more than 100,000 teachers, judges, 
academics, and government officials have been fired in the past year by 
President Erodgan's regime, with journalists like Orhan Kemal Cengiz 
indicted on trumped-up charges;

    <all>  None on Saudi Arabia, even as its military has killed 
thousands of civilians in its carpet bombing of Yemen, and even as it 
offers example and inspiration for the Islamic State through a regime 
that subjugates women, tramples religious freedom and conducts 
beheadings--all in the name of a fundamentalist theology which, over 
decades and with billions of petro-dollars, Saudi Arabia has propagated 
around the globe;

    <all>  None on Russia, even as it invaded Ukraine, swallowed 
Crimea, sparked bloody wars on its eastern and western borders, crushed 
basic freedoms at home, and reportedly assassinated dissidents and 
journalists who dare to defy the dictatorship of Vladimir Putin;

    <all>  And the list goes on. More than 170 out of the U.N.'s 193 
member states have never been condemned by the council for any human 
rights violations. These governments have never been made the subject 
of a commission of inquiry, investigation by an independent expert, or 
an urgent session.

    What is most troubling is that no resolutions have even been 
proposed regarding these gross violators.
    Notably, while from 2006 to 2016 the council only condemned 14 
different countries, even its discredited predecessor, in the 10-year 
period from 1991 to 2001, condemned 24 different countries. For this 
the minority faction of liberal democracies--France, Germany, the UK, 
the U.S. cannot blame others. Democracies that care about human rights 
ought to hold the worst abusers to account.
Universal Periodic Review: A Mutual Praise Society
    The new Universal Periodic Review (UPR) mechanism, introduced in 
the 2006 reform, was supposed to be the council's saving grace. In 
theory, the fact that every country is reviewed under the UPR--even if 
it is only once every four years, and for only three hours--is a 
positive development.
    In practice, however, most of the reviews have failed to be 
meaningful, effective, or noteworthy. During one session in 2009, Libya 
used the UPR to praise Cuba for ``promoting freedom of thought and 
expression,'' while China praised Saudi Arabia for its record on 
women's rights.
    In 2013, China again used the UPR to praise Saudi Arabia--shortly 
after 53 Ethiopian Christians were arrested for praying in a private 
home--for its ``religious tolerance.'' The next day, Saudi Arabia 
praised China, which has trampled the human rights of the Tibetans, for 
``progress'' in ``ethnic minority regions, at the political, cultural 
and educational levels.''
    With the exception of a small amount of meaningful questions posed 
by democracies, the UPR has amounted to a mutual praise society.
Elevating Apologists for Dictators
    There are many U.N. human rights experts, known as Special 
Procedures or Special Rapporteurs, who do good work. For example, Dr. 
Ahmed Shaheed, the former Special Rapporteur on Iran, did an exemplary 
job of holding that regime to account for their abuses, even if the 
council's annual resolution, in contrast to that of the General 
Assembly, contains nothing of substance on the situation of human 
rights in Iran.
    At the same time, on several occasions, the council has appointed 
experts who distort human rights.
    One example is the council's 18-member Advisory Committee. Members 
in the past have included Halima Warzazi, who in 1988 shielded Saddam 
Hussein from being censured after he gassed Kurds in Halabja; Jean 
Ziegler, who co-founded the ``Muammar Qaddafi International Prize for 
Human Rights,'' and who is still a member today; and Miguel d'Escoto 
Brockmann, who embraced the murderous rulers of Iran and Sudan.
    Likewise, in 2015 the council appointed Idriss Jazairy as one of 
its human rights monitors, despite the fact that he is the same person 
who, as Algerian ambassador in 2007, personally directed an aggressive 
campaign to muzzle the council's human rights monitors, by imposing a 
``Code of Conduct.''
    Mr. Jazairy promptly made a U.N. visit to Sudan, not to criticize a 
government whose leader is wanted by the International Criminal Court 
for being a perpetrator of genocide, but rather to declare that Sudan 
was a victim of human rights violations, in the form of U.S. sanctions 
against that government.
Demonizing Israelis and Denying Their Human Rights
    Nowhere is the chasm between promise and performance more 
pronounced than in the council's pathological obsession with demonizing 
Israelis and denying their human rights. The council's selective 
treatment of Israel is a standing and gross breach of its obligation to 
act ``without distinction of any kind'' and ``in a fair and equal 
manner.''
    The council's persecution of Israelis has never been worse. From 
its creation in June 2006 through June 2016, the UNHRC over one decade 
adopted 135 resolutions criticizing countries; 68 out of those 135 have 
been against Israel--more than 50%.
    More significantly, in qualitative terms, never before has the 
actual damage been greater in terms of human lives affected. The 
council's 2009 commission of inquiry on Gaza which produced the 
Goldstone Report--a 500-page document that excoriated Israel and 
exonerated Hamas--initiated a new era whereby a terrorist group has 
come to rely on the council as a reliable and powerful global tool in 
its war against Israel.
    Knowing that the council and its appointed commissioners will 
condemn Israel based on a false effects-based evaluation of targeting 
judgments, Hamas been incentivized by the U.N. to launch rocket attacks 
against Israeli civilians while placing its own civilian population in 
harm's way. Thus the council's Goldstone Report contributed to the Gaza 
war of 2014, which produced an identical pattern of the council 
convening an urgent session condemning Israel from the start, and 
producing an egregiously flawed and biased report.
    Another example of the council's intensifying assault on the human 
rights of Israelis is the March 2016 resolution which instituted a new 
U.N. black-list of companies doing business across the 1949 armistice 
line, whose goal is to have the U.N. implement the anti-Israeli BDS 
campaign--boycott, divestment and sections. By legitimizing coercive 
measures akin to the Arab Boycott of Israel, the council now seeks to 
strangle the economic life of Israeli citizens. High Commissioner Zeid 
should not allow his office to be complicit in this assault.
Special Agenda Item Against Israel
    When the council's creation was debated in 2006, the U.N.'s 
Department of Public Information distributed a chart promising that, in 
its words, the ``agenda item targeting Israel'' (Item 8) of the old 
commission would be replaced at the new council by a ``clean slate.'' 
\3\ Although this course correction never came to fruition, it is 
important to note that a key U.N. document acknowledged the true nature 
of the agenda item: to target Israel.
    Despite the promise of reform, the new council revived the infamous 
agenda item, now as Item 7. No other country in the world is subjected 
to a stand-alone focus that is engraved on the body's permanent agenda, 
ensuring its prominence, and the notoriety of its target, at every 
council meeting.
    The council's credibility and legitimacy remain compromised as long 
as one country is singled out while serial human rights abusers escape 
scrutiny. Item 7 negates the council's founding principles of non-
selectivity and impartiality.
    Indeed, U.N. Secretary-General Ban Ki-moon criticized this act of 
selectivity a day after it was instituted. On June 20, 2007, Mr. Ban 
``voiced disappointment at the council decision to single out Israel as 
the only specific regional item on its agenda, given the range and 
scope of allegations of human rights violations throughout the world.'' 
\4\
    Importantly, the U.S., the EU and other democracies as a general 
rule today no longer speak under Item 7. Rather, they voice any of 
their criticisms of Israel during the general debate on all country 
human rights situations, which is Item 4.
Content of Resolutions
    What makes the resolutions on Israel different from virtually every 
other country-specific resolution is that they are suffused with 
political hyperbole, selective reporting, and the systematic 
suppression of any countervailing facts that might provide balance in 
background information or context.
    By contrast, even the council's resolutions on a perpetrator of 
atrocities such as Sudan--whose president, Omar al-Bashir, is wanted 
for genocide by the International Criminal Court--regularly included 
language praising, commending and urging international aid funds for 
its government. \5\
    A 2008 resolution on Sudan, for example, even as it expressed 
concern at violations in Darfur, failed to condemn the Sudanese 
government, and instead falsely praised the regime for its 
``collaboration'' and ``engagement'' with the international community, 
for ``measures taken to address the human rights situation,'' and for 
``cooperating fully with the Special Rapporteur.'' \6\
    It suggested the regime was engaged in the ``progressive 
realization of economic, social and cultural rights in the Sudan,'' and 
failed to reflect the true gravity of the human rights and humanitarian 
situation. It called for support and assistance to the Sudanese 
government. A resolution adopted in 2010 was similar. \7\ None of this 
positive language, by contrast, appears in any of the resolutions on 
Israel.
    Indeed, on one occasion, the council's praise of the al-Bashir 
regime was so excessive that the EU actually voted in opposition to a 
resolution on Darfur. \8\
    The practice of singling out Israel--not only with a 
disproportionate amount of resolutions, but with language that is 
uniquely condemnatory--constantly reinforces the impression that there 
is nothing whatsoever to be said in Israel's favor. The effect, as the 
philosopher Bernard Harrison has carefully shown in his book The 
Resurgence of Anti-Semitism, describing this same phenomenon in other 
influential sectors, is to stigmatize Israel as evil. \9\
    Former U.N. Secretary-General Kofi Annan has criticized this bias:

        ``I believe the actions of some U.N. bodies may themselves be 
        counterproductive. The Human Rights council, for example, has 
        already held three special sessions focused on the Arab-Israeli 
        conflict. I hope the council will take care to handle the issue 
        in an impartial way, and not allow it to monopolize attention 
        at the expense of other situations where there are no less 
        grave violations, or even worse.'' \10\

    Ban Ki-moon delivered similar remarks at the conclusion of his term 
in 2016.
    Indeed, victims of human rights crises around the globe have been 
ignored. Worse, some special sessions have been used to legitimize 
violations. In 2009, Western states finally managed to convene a 
special session on Sri Lanka after it killed an estimated 40,000 
civilians. Yet the council majority turned the draft resolution upside 
down and praised the Sri Lankan government for its ``promotion and 
protection of all human rights.'' \11\
Conclusion: Reform of the UNHRC Has Failed
    In conclusion, it is clear that, according to the U.N.'s own 
standards, the promises of the council's founding resolution--improved 
membership, action for victims, an end to politicization and 
selectivity--have not been kept. Sadly, every one of Kofi Annan's 
criticisms of the old Commission apply equally to the new council.
                 recommendations for the united states
    I believe there are important actions that the United States can 
and should take to fight back and protect the American values which are 
embodied in the founding human rights principles and purposes of the 
United Nations.
1. U.S. Should Keep Its Membership and Lead the Opposition
    The U.S. should hold on to its council membership in order to lead 
the opposition in an arena that influences hearts and minds worldwide. 
The council is a dangerous place. But we already witnessed in the 2006-
2009 period how the absence of the U.S. failed to make the problems go 
away, and the situation only got worse. The U.S. should appoint an 
ambassador to the council like Daniel Patrick Moynihan, Jeane 
Kirkpatrick and Nikki Haley, who will go on the record on the council 
floor and speak truth to power. This will have the greatest impact. 
Articulate human rights advocates who have been outspoken opponents of 
U.N. double standards--such as Alan Dershowitz--ought to be considered.
2. The U.S. Should Oppose the Election of Violators
    The U.S. should lobby U.N. member states to defeat the election of 
unqualified candidates, and speak out against the most egregious 
candidacies.
    Regrettably, the U.S. was inexplicably silent when the murderous 
Libyan regime of Muammar Gadhafi was elected to the new council in 
2010, as it was during the successful 2013 election campaigns of China, 
Russia, Cuba and Saudi Arabia. As a rule, it has failed to publicly 
oppose the election to the council of the worst human rights violators. 
This should end.
    In a major 2012 policy speech delivered at the council on Foreign 
Relations, then-U.S. ambassador for U.N. reform Joseph Torsella 
declared: ``In the case of membership on the Human Rights council, the 
U.S. will work to forge a new coalition at the U.N. in New York, a kind 
of `credibility caucus' to promote truly competitive elections, 
rigorous application of membership criteria, and other reforms aimed at 
keeping the worst offenders on the sidelines.''
    Sadly, this did not happen. The U.S. should encourage countries 
with the strongest record of commitment to human rights to run for 
UNHRC election in their respective regional groups. The U.S. should 
likewise encourage countries to choose candidates based on their record 
of protecting human rights at home and at the U.N., and not based on 
political factors.
3. The U.S. Should Hold Abusers to Account by Introducing Resolutions
    The U.S. should lead its allies in demanding accountability from 
council members that commit gross and systematic human rights 
violations. At every regular session, the U.S. and its allies should 
initiate measures that meaningfully name rights-abusing countries, 
unequivocally condemn their abuses, and directly attribute 
responsibility to the perpetrators.
    Under the council's founding Charter, Resolution 60/251, elected 
member states have special obligations including the duty to ``uphold 
the highest standards in the promotion and protection of human 
rights.''
    Yet the worst abusers on the council currently enjoy impunity. Of 
council members whose human rights records rank lowest on the Freedom 
House survey, rated as ``Not Free,'' only one--Burundi--has been the 
object of a resolution, and this occurred prior to its membership term.
    The other abusers--China, Congo, Cuba, Saudi Arabia, United Arab 
Emirates, Venezuela, Qatar--have never once been the object of a single 
resolution, special session, special rapporteur mandate, or commission 
of inquiry.
    Disappointingly, the council finds itself in an even lower position 
than its discredited predecessor. Even the Commission on Human Rights, 
despite all of its severe, systemic, and fatal defects, managed to 
strongly condemn Russia, for its serious human rights violations in 
Chechnya; hold Cuba to account with a special human rights monitor; 
debate U.S.-backed draft resolutions on China; and hold confidential 
proceedings on Saudi Arabia. By contrast, under the supposedly reformed 
council, all of these measures of accountability were eliminated, and 
council members with the worst human rights records enjoy immunity and 
impunity.
    Though resolutions addressing these regimes may well be defeated by 
the majority, the U.S. should end its unwritten policy of submitting 
texts only when they are likely to be adopted. As was proven by U.S. 
action more than a decade ago on China and other countries, the very 
introduction of draft resolutions would succeed in focusing the 
international community on severe country situations, generate 
worldwide publicity, and accomplish the desired goal of turning an 
international spotlight on abuses. To do otherwise effectively grants a 
veto on accountability to the abuser regime and its supporters.
4. The U.S. Should Convene Urgent Sessions on Gross Abuses
    The U.S. should convene more urgent sessions on situations of gross 
human rights abuse. Support from only one third of the membership, or 
16 states, is sufficient to convene a special session. While obtaining 
this amount of signatures is never guaranteed, it is achievable with a 
modest amount of U.S. diplomacy. Once the session is convened, it is 
true that any attempt to adopt a censure resolution may well be 
defeated by the majority, as happened at the May 2009 special session 
on Sri Lanka. Yet the very convening of an urgent session turns a 
powerful international spotlight on the violator.
    Mass abuses committed in recent years--by China against its Uighur 
minority, Iran against protesters, Venezuela against opposition 
leaders--should have been the object of urgent sessions.
    The U.S. should vigorously oppose, however, special sessions that 
serve no purpose other than distraction from core human rights 
priorities. Sessions held on the world financial and food crises--
issues lying far outside the competence of the UNHRC--were designed to 
point an accusing finger at the West, and to create the false image of 
a council that seriously responds to pressing developments. The 2010 
session on the Haiti earthquake, initiated by Brazil--a meeting that 
involved no criticism of any government or human rights abuse--also 
fell in this category.
5. The U.S. Should Promote an Accurate Narrative on the Council
    The U.S. should provide a full and complete account of the 
council's performance. In recent years under the Obama administration, 
at the conclusion of each regular session of the council, the U.S. 
State Department issued a set of talking points entitled ``Key U.S. 
Outcomes.'' These reports described the council as being ``at the 
forefront of international efforts to promote and protect human 
rights,'' and as a ``more effective and credible multilateral forum.'' 
As a rule, these U.S. talking points reported only on perceived 
achievements, while ignoring the adoption of numerous harmful 
resolutions that were opposed by the U.S., as well as egregious council 
failures to address human rights emergencies. The effect of this 
narrative was to reduce pressure on the council to reform, and to 
likewise discourage other democracies from speaking out against council 
misconduct.
6. The U.S. Should Act to Eliminate the Anti-Israeli Agenda Item
    The U.S. should act to eliminate the UNHRC's Agenda Item 7, which 
permanently singles out Israelis for differential and discriminatory 
treatment at every session, as well as other council measures that 
demonize Israelis and deny their basic human rights, including the 
right to life.
7. The U.S. Should Reform the U.N. Committee on NGOs
    Finally, the U.S. should invest more efforts to defend NGOs from 
harassment by acting to reform the U.N.'s influential 19-government 
Committee on NGOs in New York, which is increasingly misusing its 
approval and quadrennial review procedures, unduly politicizing what 
should be a strictly professional and technical process. The U.S. 
should act to dramatically alter the membership which currently 
includes--and is dominated by--Iran, Russia, China, Cuba, Pakistan, 
Venezuela, Turkey, Sudan (whose president is wanted by the ICC for 
genocide), Burundi (where there have recently been warnings of 
genocide), Mauritania (which has slavery), Nicaragua, Guinea and 
Azerbaijan.
Conclusion
    Only if we act now, with conviction and vigor, will the world's 
highest international human rights body have any chance of improving on 
the fortunes of its failed predecessor.
    I look forward to working with the Senate and this committee on 
these issues, to help reshape the UNHRC into an institution that is 
credible and effective for human rights victims, according to the noble 
vision articulated 70 years ago by Eleanor Roosevelt. I applaud your 
continued interest in this vital matter, and I welcome your questions. 
Thank you.

------------------
Notes

    \1\ See Report of the Secretary-General, ``In larger freedom: 
towards development, security and human rights for all,'' March 21, 
2005 (A/59/2005); and Explanatory Note by the Secretary General, 
Addendum 1 to ``In larger freedom,'' May 23, 2005 (A/59/2005/Add.1).
    \2\ ``Despots Pretending to Spot and Shame Despots,'' Kenneth Roth, 
New York Times, April 17, 2001 http://www.nytimes.com/2001/04/17/
opinion/17iht-edrothed2_.html
    \3\ UNDPI, ``CHR vs. HRC: Key Differences.'' The chart had been 
posted on a U.N. website, but has since been removed. However, copies 
are available at http://www.kintera.org/atf/cf/%7B6DEB65DA-BE5B-4CAE-
8056-8BF0BEDF4D17%7D/HRC--PROMISES.PDF?tr=y&auid=2735018.
    \4\ See http://www.un.org/apps/news/
story.asp?NewsID=22984#.Usyfz_RQIk0.
    \5\ Two related resolutions adopted on 14 December 2007 are 
illustrative. In A/HRC/RES/6/34, the council renewed the mandate of an 
expert on Sudan, yet it failed to condemn the government's massive 
human rights violations. Instead, the text praised Sudan for 
``cooperating fully'' with the U.N. and urged countries to give money 
to the Sudanese government. The preamble demanded that the U.N. expert 
abide by the HRC's code of conduct, implicitly criticizing the 
monitor's work and weakening his standing. Similarly, in A/HRC/RES/6/
35, the council expressed general concern at impunity in Darfur, but 
quietly abolished its group of experts mandated to monitor that region. 
The text failed to directly condemn the Sudanese government for 
violations, and instead praised Sudan for ``cooperation,'' ``open and 
constructive dialogue,'' and for its alleged efforts to implement 
recommendations. By contrast, no council resolution on Israel has ever 
praised its government for cooperation, or anything else, even when 
U.N. officials in their reports occasionally do so.
    \6\ A/HRC/RES/7/16: ``Situation of Human Rights in the Sudan'' (27 
March 2008).
    \7\ In A/HRC/RES/15/27, ``The situation of human rights in the 
Sudan'' (1 October 2010), the council renewed the mandate of an expert 
for one year, yet failed to mention the grave human rights situation in 
the country or hold the government accountable for its violations. 
Instead it repeatedly praised the Sudanese government: ``Recognizing . 
. . the efforts of the Government of the Sudan in the promotion and 
protection of human rights . . . .'' ; ``Commends the cooperation 
extended by the Government of the Sudan to the independent expert and 
to the [U.N.] and [AU] missions . . . '' ; and ``Congratulates the 
Government and the people of the Sudan for organizing and for widely 
participating in the April 2010 elections.''
    \8\ HRC Decision 2/115 entitled ``Darfur'' (28 November 2006) noted 
with concern the human rights situation in Darfur, but failed to name 
the Sudanese government as a perpetrator. Instead, it extolled 
Khartoum's positive measures and ``cooperation,'' and called upon the 
international community to provide ``urgent and adequate financial 
assistance to the Government of Sudan.'' In protest to the resolution's 
gross imbalances, the EU and other democracies took the exceptional 
move of voting No, even though they strongly supported passing a 
resolution on Darfur and several aspects of that particular text. Yet 
the same logic is not applied by EU states when they vote each year to 
support approximately 15 imbalanced UNGA resolutions on Israel 
sponsored by the Arab and Islamic states.
    \9\ B. Harrison, The Resurgence of Anti-Semitism: Jews, Israel, and 
Liberal Opinion (Rowman & Littlefield, 2006) at 67-70.
    \10\ U.N. Secretary-General Kofi Annan, addressing the Security 
council, 12 December 2006, http://www.un.org/News/Press/docs/2006/
sgsm10796.doc.htm.
    \11\ Resolution A/HRC/S-11/1, entitled ``Assistance to Sri Lanka in 
the promotion and protection of human rights'' (27 May 2009) was 
adopted by a vote of 29 to 12 (EU and other Western countries voting 
No), with 6 abstaining. The text ``[w]elcomes the continued commitment 
of Sri Lanka to the promotion and protection of all human rights.''

    Senator Young. Thank you, Mr. Neuer.
    To reinforce something Mr. Malinowski said, I have no 
doubts that authoritarian regimes and the broader international 
community will pay some measure of attention to some of the 
words that are said here today. So thank you much.
    Mr. Piccone.

    STATEMENT OF TED PICCONE, SENIOR FELLOW, THE BROOKINGS 
                  INSTITUTION, WASHINGTON, DC

    Mr. Piccone. Thank you, Mr. Chairman and Senator Merkley, 
for this opportunity to share my thoughts on why the United 
States should stay actively engaged with the U.N. Human Rights 
Council.
    Let me start by underscoring what the council is and does. 
It is a political body composed of governments elected by the 
U.N. General Assembly and issues resolutions on country 
situations or thematic topics, like torture or freedom of 
religion. But it also authorizes independent experts and fact-
finding bodies to conduct country visits to monitor, 
investigate, and report publicly on specific violations of 
human rights and some of the most dire situations in the world, 
from North Korea and Iran, to South Sudan and Eritrea. When 
these actions are taken by consensus, or even a majority of 
such a diverse group of countries that sit on the council, then 
I think we are seeing an effective body, more effective than if 
we could do it by ourselves.
    The council's activities mean a lot to human rights 
victims, and they shine a light on abuses and create a 
historical record. But they also put pressure on member states 
to remedy these violations. I have documented hundreds of cases 
in which this has occurred.
    We should also keep in mind that the council is but one 
part of the U.N. system that tries to mainstream human rights 
across the U.N., and that this entire human rights pillar 
accounts for only 3 percent of the U.N.'s regular budget. So, 
really, we are trying to do human rights on the cheap, and we 
need to start matching expectations with resources.
    Areas of progress, let me highlight four.
    Universal periodic review is a new council mechanism that 
for the first time examines the human rights record of every 
country in the world. It has a remarkable 100 percent rate of 
participation, underscoring the universality of international 
human rights principles. This means that governments that too 
often have escaped any U.N. scrutiny for political reasons now 
receive public questioning and recommendations. And the five 
governments that have received the most recommendations are 
among the most repressive in the world: Cuba, Iran, Egypt, 
North Korea, and Vietnam. Many of these governments have 
accepted hundreds of these recommendations for reform, and now 
the work is to follow up and implement them.
    Second, country-specific scrutiny. In addition to universal 
review, the council has dramatically increased the number of 
independent experts and fact-finding missions to examine abuses 
in these specific countries, some of which I have already 
mentioned. Since creation of the council, the number of 
country-specific reports by these independent experts has 
increased by 104 percent.
    Third, commissions of inquiry, increasingly establishing 
special expert bodies to investigate the worst violations of 
human rights, including crimes against humanity. Since 2011 
alone, the council has created 17 such commissions, including 
Libya, Syria, and North Korea. Their work documents violations 
and their victims quickly before the evidence is destroyed or 
witnesses lost. We have talked about North Korea. We can talk 
about it some more, about what it has accomplished.
    Then fourth, I think an area of progress is on access to 
civil society. The Human Rights Council is known as one of the 
most open and accessible bodies in the U.N. structure. NGOs are 
actively involved, and special rapporteurs reach out to them 
when they visit countries on the ground.
    Now, we have also talked about some shortcomings, and 
membership is clearly one of them. There are criteria for 
candidates for elections and for sitting on the council, and 
they are not working to prevent some of the worst violators 
from getting a seat on the body.
    The clean-slates problem we have talked about, but we know 
that when slates are competitive, the General Assembly has 
voted to deny seats to some of the worst human rights 
performers, including Russia, which was mentioned previously. I 
can further talk about some of the steps that can be taken to 
address this membership problem.
    On Israel, another major shortcoming. We all, I think, can 
agree that the treatment of Israel is patently biased and 
unfair. I would suggest that this is maybe an opportunity for 
the Trump administration to work with other like-minded states, 
including in the Arab world, and the High Commissioner for 
Human Rights, to broker an agreement to eliminate the permanent 
agenda item on Israel and reduce the number of resolutions to 
one omnibus resolution.
    I would not argue in favor of conditioning U.S. membership 
on the council. I think it is too blunt a tool.
    Another area that needs attention is protecting human 
rights defenders from reprisals. The council, I think, should 
be very strict when there are cases of reprisals against those 
that are cooperating with the council, that they be called out 
on it and even disqualified from membership. And the U.S. has a 
role to play in pushing that.
    On U.S. leadership on the body, we know what the council 
can do with and without U.S. leadership. We saw it in 2006 to 
2009 when the U.S. was absent from the council. They adopted 
the Israel OPT as a permanent agenda item, convened many 
special sessions, and other things. It passed a shameful 
resolution on Sri Lanka before that problem got fixed under 
U.S. leadership, and terminated mandates on Cuba and Belarus.
    After the U.S. joined, the disproportionate attention on 
Israel dropped significantly, and then the scrutiny on dire 
cases like North Korea, Syria, and Iran increased dramatically.
    There are several other things the U.S., I think, managed 
to achieve during its time on the council. I mentioned some of 
them, including on North Korea and Syria, and also on important 
thematic topics like freedom of association, preventing 
violence based on sexual orientation, and condemning 
governments that block access to the Internet.
    Finally, let me jump to my final comments. The United 
States, I think, faces a clear choice--engage proactively as a 
principled catalyst or withdraw and let authoritarian states 
manipulate and control the agenda. And they are ready and 
willing to do so, as others have pointed out.
    I think, basically, protecting human rights is too 
important to our national interests to be left to the spoilers 
and the naysayers. And I think we, in particular, have a 
special role to play. And to lead effectively, we must practice 
what we preach abroad. I think Congress, now more than ever, it 
is so important to demonstrate to the world that our 
longstanding commitment to protecting human rights is deep and 
bipartisan.
    Thank you.
    [The prepared statement of Mr. Piccone follows:]

                   Prepared Statement of Ted Piccone

    Good afternoon, Mr. Chairman, Senator Young and Mr. Ranking Member, 
Senator Merkley. I am grateful for the opportunity to contribute to the 
Subcommittee's deliberations regarding the United Nations Human Rights 
Council and the role of U.S. engagement in supporting and strengthening 
the world's only intergovernmental body devoted to human rights.
    Since its establishment in 2006, the Human Rights Council has 
carried out its mission to promote universal respect for the protection 
of all human rights in a myriad of both traditional and innovative 
ways. These include public scrutiny of every country's human rights 
performance in accordance with their international obligations; special 
sessions devoted to addressing gross and systematic violations in 
countries like Syria; fact-finding investigations; country visits by 
independent experts charged with monitoring issues ranging from 
violence against women to freedom of expression; and technical 
assistance and capacity-building. As a political body representing the 
United Nation's highly diverse member states, it is both an invaluable 
instrument for human rights, and an imperfect one. The best option for 
making it better is for the United States to stay actively engaged in 
shaping and influencing its work.
    As a close observer of its activities since its creation over a 
decade ago, I will highlight a few of the areas where the Council has 
made progress over the last several years, and where it has fallen 
short. I will then make some observations regarding the importance of 
strong U.S. leadership at the Council by comparing its performance 
before and after the U.S. joined the body.
                           areas of progress
    1. Universal Periodic Review: The Council has recently completed 
its second round of publicly examining the human rights record of every 
member of the United Nations. This unique mechanism allows, for the 
first time, an opportunity for any government to raise questions and 
make recommendations about any other government's human rights 
behavior. It brings recommendations from U.N. treaty bodies, 
independent experts and civil society to the table for discussion in 
public hearings webcast around the world. The results so far are 
encouraging. Over time, more governments are making more action-
oriented recommendations, and governments are accepting more of 
them.\1\ Notably, the five governments receiving the most UPR 
recommendations are among the most repressive in the world--Cuba, Iran, 
Egypt, North Korea and Vietnam. This process provides a key point of 
leverage for human rights defenders on the ground and internationally 
to hold governments accountable to their promises. It also 
universalizes and depoliticizes human rights as a core obligation of 
international law. This is a vast improvement on its predecessor, the 
Commission on Human Rights, which scrutinized only a fraction of U.N. 
member states during its existence and only with great effort and 
controversy. Systematic follow-up and implementation, along with tying 
human rights diplomacy and assistance to the most important 
recommendations, are needed to continue this progress.
---------------------------------------------------------------------------
    \1\ In 2008, just 27 percent of all UPR recommendations were 
accepted; in 2014 this number rose to 69 percent. Ted Piccone and Naomi 
McMillen, ``Country-specific Scrutiny at the United Nations Human 
Rights Council: More than Meets the Eye,'' Brookings Institution 
Working Paper, May 2016, p. 9.
---------------------------------------------------------------------------
    2. Country-specific Scrutiny: While the UPR is an important step in 
the right direction, it certainly is not enough to fulfill the 
Council's mandate to address dire situations involving gross and 
systematic violations of human rights. To that end, the Council has 
dispatched more independent experts, known as special procedures, as 
well as fact-finding missions and commissions of inquiry to examine 
human rights abuses in some of the most urgent situations around the 
world. These include Iran, North Korea, Syria, Burundi, South Sudan, 
Sri Lanka, Burma, Cambodia, Libya and Eritrea. Their reports provide 
authoritative findings on the complex patterns of violations, 
identification of responsible actors, and recommendations for 
accountability and reform. Between 2006 and 2015, the number of 
country-specific reports submitted by special procedures increased by 
104 percent and the number of governments issuing standing invitations 
to these independent experts almost doubled to 114. Since 2006, the 
Council has convened 26 special sessions devoted to urgent cases of 
human rights, which one-third of the Council's members can call at any 
time. These include two recent sessions on Syria and on South Sudan and 
one in 2014 on the atrocities committed by ISIS. Nonetheless, the 
Council has failed to act in the face of other urgent crises. To 
address this problem, the UNGA could allow the Secretary General, the 
High Commissioner for Human Rights, or the Security Council to request 
Council action on particularly urgent country situations.
    3. Commissions of Inquiry: The Council is establishing a growing 
number of commissions of inquiry to serve as independent fact-finding 
bodies to investigate grave violations of human rights, including 
crimes against humanity, and to identify perpetrators for the purpose 
of holding them accountable. This instrument is designed to document 
violations and victims quickly, before evidence is destroyed or 
witnesses lost, and to begin a process of accountability in situations 
where national authorities are unwilling or incapable of conducting 
proper investigations or trials. Since 2011, the Council has created 17 
such commissions covering a diverse array of countries from Cote 
d'Ivoire to Sri Lanka.\2\ The commission on North Korea delivered a 
trailblazing 400-page report in 2014 documenting crimes against 
humanity--including murder, torture, rape, enslavement, forced 
abortions and knowingly causing prolonged starvation--carried out at 
the highest levels of government. The report triggered unprecedented 
attention by the U.N. Security Council, creation of a U.N. human rights 
field office in Seoul and, more recently, targeted sanctions by the 
U.S. government. The commission of inquiry on Syria, with support from 
a new supplemental body of experts recently established by the U.N. 
General Assembly, is preparing files on specific individuals 
responsible for massive human rights violations in that conflict so 
that, one day, there might be accountability for the victims under 
international criminal law.
---------------------------------------------------------------------------
    \2\ Only two of these 17 were related to Israel/OPT.
---------------------------------------------------------------------------
    4. Access to Civil Society: The Human Rights Council is known as 
the most open and accessible body in the entire U.N. structure. This is 
precisely as it should be given that every human being is entitled to 
human rights under international law and deserves a chance to be heard. 
With the Council meeting three times a year in regular session, plus 
UPR and special sessions, side events, expert panels and a regular call 
for submissions from nongovernmental organizations, civil society has a 
special year-round place in the Council's activities. With the support 
of the Office of the High Commissioner for Human Rights (OHCHR), the 
Council's programs are ever more transparent through its website and 
webcasting facilities. Special rapporteurs routinely reach out to civil 
society activists and experts on their country missions, a key 
ingredient for ensuring their work is relevant to human rights 
defenders on the ground. UPR is also opening new doors for human rights 
activists to make their case directly to government officials for 
reforms that meet international standards and establishing systematic 
follow-up reviews.
                  shortcomings and options for reform
    1. Membership: The U.N. General Assembly is responsible for 
electing members to the Council based on ``the contribution of 
candidates to the promotion and protection of human rights and their 
voluntary pledges and commitments made thereto.'' In addition, once 
elected, members are charged with upholding ``the highest standards in 
the promotion and protection of human rights'' and ``shall fully 
cooperate with the Council.'' \3\ Sitting members that commit gross and 
systematic human rights violations can be suspended by the General 
Assembly. These criteria were intended to fix a recurring problem, 
which plagued the predecessor Commission on Human Rights, of members 
unwilling to honor or, worse, subverting the human rights promotion 
mission of the body. With the reallocation of seats geared more to 
Africa and Asia in 2006, these rules were also meant to guard against a 
predominant influence by non-democratic states uncommitted to the 
U.N.'s human rights pillar. Currently, about 45 percent of Council 
members are rated as free in Freedom House's annual ratings and 23 
percent are graded as not free.
---------------------------------------------------------------------------
    \3\ UNGA Res. 60/251.
---------------------------------------------------------------------------
    Unfortunately, now with over ten years of experience, we can say 
that the membership results are disappointing. Time and again, member 
states elect candidates who do not meet the election criteria, even in 
the face of concrete evidence that they are not fully cooperating with 
the Council's mechanisms. Even worse, states are unwilling to exercise 
the suspension option, as in the case of Burundi last year. Regional 
blocs too often put forward clean slates that give the General Assembly 
no real alternatives. We know that when slates are competitive, the 
UNGA has voted to deny seats to some of the world's worst human rights 
performers; even Russia, a P-5 Security Council member, was defeated 
last November after its bombing of civilians in Aleppo, Syria. Thanks 
to competitive slates, other states have been defeated or chose to 
withdraw in the face of likely defeat, including Sudan, Iran, Syria, 
Azerbaijan and Belarus.
    To address the membership problem, the United States and its 
democratic allies in the Community of Democracies should redouble their 
efforts to recruit other like-minded states to run, especially the many 
electoral democracies that have never sought a seat on the Council. 
They should build consensus in the GA for new rules that would mandate 
competitive slates for membership and lead by example in their own 
regional blocs. In cooperation with OHCHR, they should use the annual 
elections process as an opportunity to shine a bright light on the 
states that are not fully cooperating with the Council.\4\ Where 
regional slates are closed, the United States mission in New York 
should lead efforts to block the worst offenders from reaching the 
minimum 97 affirmative votes needed to be elected. Like-minded states 
should also increase their contributions to the Council's special 
assistance fund established to help small island and low-income states 
fulfill the heavy demands of membership. Finally, in egregious cases, 
they should mobilize support to remove a state responsible for gross 
and systematic abuses, as in they did with Libya in 2011.
---------------------------------------------------------------------------
    \4\ This could be done through an annual report on whether or not a 
state accepts country visits by Special Procedures and responds to 
their communications, submits timely reports to treaty bodies, and 
implements recommendations accepted from the UPR mechanism.
---------------------------------------------------------------------------
    In the meantime, it is worth remembering that the Council continues 
to take robust action against states that commit grave violations, over 
the objections of members like China, Saudi Arabia, Egypt, Burundi, 
Cuba and Venezuela. This is thanks to determined efforts by the United 
States and other like-minded governments to build cross-regional 
coalitions for action. When the Council adopts these measures by 
consensus--most recently this past March in the cases of South Sudan, 
Myanmar and North Korea--the moral and political voice of the Council 
is even stronger.
    2. Israel/Palestine: We can all agree that having Israel's 
occupation of Palestine (OPT) as a permanent item on the Council's 
agenda (Item 7) is patently biased and unfair. The annual ritual of 
singling out Israel for violations committed in the course of its five-
decades long occupation of the Palestinian territories is hypocritical 
and violates the letter and spirit of the Council's principles of 
``objectivity and non-selectivity.'' It is long past time for moving 
Israel/OPT resolutions to the regular agenda item that deals with 
country situations, like any other country, and to reduce the number of 
Israel/OPT resolutions to a manageable and proportionate size. A 
serious negotiation should take place, perhaps led by the High 
Commissioner for Human Rights, with mediating support from states like 
Norway and Morocco, that would bring together Israel, Palestine and the 
Arab states for this purpose. The United States might help play a 
supporting role in brokering such an agreement as part of an early 
confidence-building step in an Arab/Israeli peace process. I agree, 
however, with the Council on Foreign Relations report published earlier 
this year that Congress should avoid conditioning its membership on the 
Council on eliminating Item 7--it's the wrong tool for the right goal.
    3. Protecting Human Rights Defenders from Reprisals: As noted 
previously, the Council's mechanisms are the most open and accessible 
of any body at the United Nations. But several problems remain. NGO 
representatives invited to speak at the Council are too often 
interrupted with harassing points of order from repressive delegations. 
Reprisals against human rights defenders who cooperate with the Council 
are much too frequent. Any state found to be responsible for such 
reprisals, and which fails to rectify them, should be disqualified from 
sitting on the Council. Finally, the U.N. member states must fix the 
broken process of granting accreditation to civil society 
organizations. The U.N. NGO Committee in New York routinely has failed 
to discharge its duties in this regard and has become a tool for 
authoritarian states that fail to uphold basic norms of freedom of 
association in their own countries. If Congress wants to improve this 
situation, it should instruct our mission in New York to work with the 
Community of Democracies to lobby for a complete overhaul of the 
accreditation system to take it out of the hands of diplomats and give 
it to professional experts qualified to make the technical assessments 
needed to give civil society a greater voice at the United Nations.
                            u.s. leadership
    We know from years of experience in the field of human rights 
diplomacy that when the United States puts its shoulder to the wheel 
and adopts smart and constructive strategies to promote and protect 
human rights, it can succeed. We also know that when Washington decides 
to withdraw, as it did during the Council's early years from 2006-09, 
the results can be disastrous for our interests and that of our allies.
    During negotiations for creation of the Council, the Bush 
administration fought hard for a smaller body composed of strong human 
rights defenders and other reforms. When it did not achieve all its 
goals, the administration decided that the outcome was not worth their 
time and yielded the floor to the likes of Pakistan, Egypt, Algeria, 
Saudi Arabia, Cuba and others who were bent on manipulating the rules 
to castigate Israel and reduce scrutiny of other flagrant abusers. 
Unfortunately, they succeeded. During the U.S. absence, the Council 
indeed took action to make ``the human rights situation in Palestine 
and other occupied Arab territories'' a permanent agenda item. During 
the three-year period when we were absent, the Council's members also 
convened no less than six special sessions on Israel's behavior and 
established two commissions of inquiry on Israel's record in the Gaza 
conflict and elsewhere. Beyond Israel, the Council in 2009 shamefully 
convened a special session on Sri Lanka's bloody termination of its 
conflict with the Tamil National Liberation Front that ended up 
praising the government's anti-terrorism record. It also terminated 
mandates of independent experts monitoring human rights violations in 
Cuba and Belarus.
    In 2009, the Obama administration decided to rejoin the Council and 
devoted significant diplomatic efforts to address its shortcomings. The 
United States won reelection to a second three-year term in 2012 and 
after a mandatory year off rejoined the body this year. The impressive 
results of this activism are a tangible reminder that U.S. leadership 
does make a difference in advancing both our values and our interests.
    To give a few examples, the number of special sessions called on 
Israel dropped from six during the three years before we joined the 
Council to one during our first two terms as a member; a similar 
decrease in the proportion of country resolutions and commissions of 
inquiry devoted to Israel occurred, along with a corresponding increase 
in attention to dire cases like Iran, North Korea and Syria. Israel now 
participates in the Western European regional bloc and in the Universal 
Periodic Review and relies heavily on the United States to defend it 
from biased scrutiny by boycotting item 7 sessions, voting against 
unfair resolutions and lobbying others to join them.
    Since the U.S. became a member in late 2009, the Council has also 
undertaken the following actions:

    <bullet> Re-established special procedures mandates for Belarus and 
Iran (the Iran mandate was terminated in 2002 after the United States 
lost a bid for a seat on the former Commission on Human Rights). The 
two special rapporteurs on Iran have filed hard-hitting reports on the 
woeful human rights situation there, most recently citing Iran's 
extremely high rate of executions, constraints on an independent 
judiciary, violations of due process, women's rights and systematic 
discrimination against religious minorities. The Belarus mandate 
remains the sole international monitoring mechanism on the country.

    <bullet> Established a commission of inquiry on North Korea, a more 
intensive mechanism to address that country's alarming human rights 
situation, by unanimous vote. The commission's final report relied on 
over three hundred interviews and satellite imagery to document crimes 
against humanity and singled out Kim Jong-un for his responsibility in 
such violations as forced labor, sexual violence and persecution of 
Christians and other religious minorities. Despite objections from 
Russia and China, the Security Council agreed to elevate North Korea's 
human rights situation to its regular agenda. This was a historic step, 
establishing the incontrovertible link between human rights and 
international peace and security, a point that Ambassador Nicki Haley 
made effectively during the recent U.S. Presidency of the Security 
Council.

    <bullet> Mandated a special OHCHR investigation into issues of 
accountability and reconciliation in Sri Lanka that restored momentum 
to the movement to address the government's shortcomings in this area. 
With the election of President Sirisena in 2015, who promised to 
restore the country's international standing, Sri Lanka is more open to 
international human rights monitoring and assistance.

    <bullet> Convened four special sessions on the crisis in Syria and, 
in August 2011, created a commission of inquiry that continues to 
document the atrocities of the main parties to the conflict that 
eventually can be used to hold the perpetrators accountable under 
international criminal law. The COI's list of Syrian individuals and 
groups allegedly responsible for war crimes already is paving the way 
for judicial proceedings against foreign fighters in at least three 
European countries.

    <bullet> Adopted important new norms and monitoring in such areas 
as: protecting freedom of association and assembly against the growing 
attacks on civil society and human rights defenders; preventing 
violence and discrimination based on sexual orientation and gender 
identity (SOGI); combating religious intolerance while protecting 
freedom of expression; and condemning for the first time governments 
that intentionally block or disrupt access to the Internet. The SOGI 
resolution also broke new ground in appointing an independent expert to 
conduct country visits to assess the status of LBGT rights, engage 
activists and governments and provide reports and recommendations to 
the Council and the General Assembly.

    These are just some of the many concrete deliverables that, simply 
put, would not have been possible without sustained and creative 
leadership by the United States. As documented in detail in the Council 
on Foreign Relations report of January 2017, in every case summarized 
above, our diplomats worked publicly and behind the scenes to forge 
cross-regional coalitions, draft pathbreaking resolutions, engage and 
defend civil society, and make the case for why the international 
community can make a difference in protecting human rights on the 
ground. Key to this record of success was appointment and Senate 
confirmation of a U.S. Ambassador dedicated to the hard work of 
building coalitions, improving membership and speaking out for 
continued reforms. The evidence against U.S. withdrawal from the body 
is clear - its absence from the Council's deliberations during the 
first three years of its existence led to serious setbacks on multiple 
fronts, including the body's preponderant focus on Israel.
                               conclusion
    In the end, the United States faces a clear choice: between 
engaging strategically as a principled catalyst through the 
international human rights system, or withdrawing to its own corner and 
letting authoritarian states weaken and dismantle that system. There 
should be no doubt in anyone's mind that they are ready and willing to 
do so. Promoting and protecting human rights is too important to our 
national interests to be left to the spoilers and the naysayers.
    The Council, we should recall, is but one instrument in our 
repertoire of tools to advance human rights around the world. But as 
demonstrated by the examples above, and even with its faults, it 
remains the only global human rights body with the legitimacy and 
universality to extend fundamental principles of human dignity to every 
corner of the world. Working alongside the High Commissioner for Human 
Rights, who is doing a remarkable job in calling the world's attention 
to the most serious human rights situation, and our dedicated corps of 
diplomats in Geneva, New York, Washington and abroad, the United States 
should stay actively engaged and build on the Council's proven track 
record of progress. It deserves Congress's continued support, now more 
than ever.

    Senator Young. Thank you, Mr. Piccone.
    There is a lot of agreement across the panelists with 
respect to your assessment of the Human Rights Council. There 
are two particularly salient areas, as I see it. My initial 
questions will address each of them. First is anti-Israel bias 
and secondarily council membership.
    Each of you just indicated in your statements that there is 
an anti-Israel bias at the U.N. Human Rights Council. When you 
consider the horrendous human rights track records of many of 
the members of the council--I mentioned China, Cuba, there is 
also Venezuela--it is a real indictment of the council that 
Israel, the only liberal democracy in the Middle East, is the 
only country in the world targeted with a permanent agenda 
item. When you consider human rights atrocities committed by 
Moscow, Tehran, Pyongyang, and the Assad regime, to name just a 
few, the fact that the council has targeted Israel with more 
than half of its resolutions criticizing countries since 2006, 
without putting too fine a point on it, it is shameful.
    Ms. Silverberg, you called the anti-Israel bias a stain on 
the council.
    Mr. Malinowski, you called it outrageous.
    Mr. Piccone, you call it biased, unfair, and hypocritical.
    Mr. Neuer, you suggest the council's obsession with Israel 
best highlights the chasm between the promise versus the 
performance of the council.
    So we have consensus here, that this is unacceptable. Based 
on that consensus, here is an open-ended question for all of 
you. What specific steps can our government take, working with 
our international partners, to get Israel removed from the 
permanent agenda of the council?
    I will begin with Mr. Piccone, because I think you actually 
proposed reducing the number of agenda items to one. Perhaps 
you could restate that proposal and expound a bit upon it, and 
then I will give others an opportunity to respond.
    Mr. Piccone. Sure.
    Each March, there are a number of resolutions on the docket 
of the Human Rights Council agenda that focus on Israel. I 
think this is obviously excessive. They are highly repetitive, 
and they are way out of proportion to anything else.
    So I think one way of addressing this is, number one, get 
rid of agenda Item 7 and put it under what is called Item 4, 
which is where a lot of other country-specific situations are 
handled. So Israel should be treated like any other country in 
the world. That is the fundamental principle that we are aiming 
for. Then you could say, okay, we have a certain number of 
concerns and here they are being addressed in one resolution.
    But it is a political issue, so it has to require U.S. 
leadership with Arab countries specifically to sit down and 
figure out how this can be negotiated.
    Senator Young. Mr. Neuer.
    Mr. Neuer. The question of the special agenda item against 
Israel actually dates back about 50 years. In fact, few are 
aware that, effectively, the precursor to the special agenda 
item against Israel began before there was even a universal 
agenda item for other countries. It was only after there was 
special attention on Israel and a couple other countries when 
eventually it was expanded to be a universal agenda item 
separate from the one on Israel. So we are really going back to 
a problem that dates back at least 50 years.
    The architect of the Universal Declaration of Human Rights, 
Rene Cassin from France, walked out of the Tehran human rights 
conference of 1968 when they began the singling out of Israel, 
and it really has not gone away.
    When the Human Rights Council promised it would change 
that, that was the promise of Kofi Annan. They specifically 
cited the agenda item targeting Israel that plagued the old 
commission. They promised that the new council would have ``a 
clean slate'' and would be universal in its treatment of human 
rights situations. Of course, that was not the case. In June 
2007, and I was there, they shamefully adopted once again the 
special agenda item against Israel.
    It would be extremely difficult to remove it, given the 
current majority that exists. There is an automatic majority at 
the Human Rights Council of about 25 to 30 out of 47 states 
that will support any measure singling out Israel. For them, 
the agenda item is a vital part of their agenda. So I think it 
will be extremely difficult.
    Nevertheless, the United States needs to go on the record 
and try its best to fight it.
    Senator Young. Mr. Malinowski.
    Mr. Malinowski. Thanks.
    I think the goal should be to get rid of the standalone 
agenda item, first and foremost. That is the most outrageous 
piece of this. I think the politics has gotten better for us, 
although I certainly agree, we do not have the votes right now.
    Just to give you an example, when this was created in 2007 
at the beginning of this version of the Human Rights Council, 
only Canada stood up to object. We were not members, so we 
could not.
    Today, virtually every Western country joins us in 
boycotting the session when they come up onto Item 7. We still 
do not have the majority that we need.
    The key I think, as I suggested in my testimony, and this 
is not a Geneva issue, this is not a Human Rights Council 
issue, this is an issue that relates to specific countries in 
the Middle East that lead the charge in keeping this on the 
agenda and proposing these resolutions. We are very, very upset 
about it, and we make speeches about it, and we go to Geneva 
and we yell and scream. But, frankly, we almost never raise it 
in a bilateral context with our allies in the Middle East.
    I agree with Mr. Piccone. We have an opportunity now with 
the new administration. I doubt it came up in these meetings in 
Saudi Arabia that just happened, but they have an opportunity, 
if they want, to persuade our allies as part of the broader 
Middle East push that is underway to make this concession.
    Senator Young. Anything to add, Ms. Silverberg?
    Ms. Silverberg. I will just say, I have great respect for 
Tom's ability as a diplomat. So if he tells me that the Obama 
administration won all the winnable fights in Geneva, I believe 
him. But I think the Trump administration has to try.
    One, as Ted and Tom pointed out, the Trump administration 
has invested in a different set of relationships. It has a 
different set of leverage. As they pointed out, I think they 
need to try to make use of them.
    Tom is absolutely right that the United States has been too 
reluctant to put U.N. issues in the middle of our bilateral 
relationships. The late Ambassador Holbrooke used to say that 
blaming the United Nations for a problem in New York was like 
blaming Madison Square Garden for a poor showing by the Knicks. 
There is a fair amount of truth in that, that the real problems 
in U.N. capitals are almost always the result of member state 
behavior. There are certainly issues in the institution itself, 
but it is member states who are really driving these.
    So my own view is they should make a try. They should make 
it an issue in our bilateral relationships. I would do it 
through a one-line resolution in New York as part of the 
General Assembly and try to build a consensus between sort of 
support with the Arab group and also support for the countries 
of Europe who want the U.S. to stay engaged on the council.
    Senator Young. Thank you all.
    Senator Merkley.
    Senator Merkley. I want to continue for a moment the 
conversation over the permanent agenda item. I have the list of 
the membership here. I am wondering if the President's trip to 
the Middle East and the alliance of interests that exists now 
between a number of Sunni nations and Israel in regard to Iran 
specifically may create an opening for ending agenda Item 7.
    Do any of you think that there is an opening right now?
    Mr. Neuer. I think it should be tried and should be 
explored. I am skeptical. Some of the regimes, the governments 
that you contemplated, do, indeed, have an on-the-ground 
alliance of interest with Israel. Certainly, Egypt, for 
example, is cooperating with Israel very substantially on the 
ground. However, the moment you come to the United Nations 
arena, you get completely removed from what is happening on the 
ground. Sometimes, you even see the opposite. You see 
governments that, for their own strategic reasons, may want to 
cooperate with Israel but have not yet built up legitimacy for 
that position among their people. So at the United Nations, 
they will often do the opposite and actually aggravate their 
anti-Israel position.
    So I am skeptical that the opening that you are seeing on 
the ground will translate to the United Nations. But 
nevertheless, I think it should be explored.
    Senator Merkley. So this concept that the U.S. should at 
least explore it or perhaps make a motion, carry a vote, carry 
a discussion, would all of you support the United States 
putting that up?
    Mr. Malinowski. Yes, I think it is a testable proposition 
that has not been tested. I would not make the motion without 
doing the diplomatic groundwork, of course. But I think if the 
Trump administration is, indeed, serious in its aim of 
resetting relationships with our gulf partners, with Egypt--I 
have concerns about that for other reasons. But if that is 
their intention, this should be one of the dividends of their 
approach.
    Senator Merkley. Mr. Malinowski, I think you mentioned that 
we do not raise it often in bilateral discussions. I guess that 
piece does surprise me, because those discussions are often 
private. It is a chance to weigh in on something that we care a 
lot about.
    I believe, Ambassador, in your remarks, you encouraged us 
to carry on such advocacy.
    Ms. Silverberg. Yes, I think, as you know, the State 
Department provides an annual report to Congress on how other 
countries vote with us in the United Nations. I think that is a 
real opportunity to start to put some of those issues not just 
in Geneva but across the U.N. system, to start to put them into 
the bilateral relationship.
    It is sometimes the case that countries are antagonists in 
New York, not despite the fact that they are U.S. partners, but 
sort of because of the fact that they are U.S. partners. They 
can test us in New York to make up for the fact that they are 
working with us in other ways, as a way to sort of appease 
their publics. I think we need to really raise the costs of 
doing that.
    It is very difficult when you are at the State Department 
in an international organization or human rights function and 
you raise these issues. You will sometimes hear from the 
regional bureau, ``Well, we have a list of 17 other priorities 
for Egypt, and we cannot possibly raise that issue.''
    But the cost of that is that the countries that oppose the 
U.S. in New York and Geneva continue to do that without any 
real penalty.
    Senator Merkley. Thank you.
    Mr. Piccone, I want to turn to your note that we now have a 
lot of commissions of inquiry that we did not have before. You 
mentioned 17 such commissions. That was over what time frame?
    Mr. Piccone. That was since 2011.
    Senator Merkley. That is a team that goes out and 
researches on the ground in the relevant nations?
    Mr. Piccone. Yes, it is usually a team of three high-level 
experts. Sometimes it is the special rapporteur who has already 
been appointed to that country--for example, in the case of 
North Korea--and then supplemented by two others. Then there is 
a quick-action staffing component that OHCHR puts together.
    They begin the process of trying to get access to the 
country. When they cannot get access to the country, they begin 
collecting testimony from people outside the country. In some 
cases, they have been able to use video linkups to reach 
witnesses. They have also used satellite imagery in the case of 
North Korea to actually see what was going on in some of the 
camps and then bring that out to the world.
    As you know, in the North Korea case, it has led to really 
important action in terms of bringing this human rights issue 
to the Security Council agenda, so directly making the link 
that Ambassador Haley has made between human rights and 
international peace and security.
    Senator Merkley. Have we seen any of the recommendations--
they make recommendations in these?
    Mr. Piccone. Yes, they do.
    Senator Merkley. Have we seen countries that have adopted 
those recommendations, have said, ``You know, you are right. 
Let's change some of these things. Let's improve our 
international standing'' ?
    Mr. Piccone. Many of these commissions are contested by the 
subject state, and they are not willing to cooperate with them. 
Nonetheless, they go forward as best they can to at least 
document what is going on in the country. So that provides a 
public record eventually for some kind of criminal 
accountability.
    In the case of Syria, the commission, supplemented by 
additional experts that were recently appointed by the U.N. 
General Assembly, are putting together a list of names that are 
under lock and key in Geneva that will be used in The Hague, 
hopefully, one day, to hold those people accountable.
    Senator Merkley. So it may hold people accountable, but I 
guess I am also wondering, before the day of such 
accountability arises, has it actually changed the practices? 
Has it helped persuade some of these countries to change their 
practices?
    Mr. Malinowski.
    Mr. Malinowski. Just picking up on your exchange with Mr. 
Piccone, in my diplomatic career, I have hardly ever had a 
witness breaking down on a witness stand moment, where a 
government says, ``You know, you are right. We are doing wrong. 
We will take all your recommendations into account.'' But what 
I found is that, when there is active scrutiny of a country's 
behavior, that scrutiny, in fact, can and does, in many cases, 
create a deterrent.
    I think the biggest test of this was the North Korea 
commission. If there is one country in the world where you 
would expect there would be zero impact on a government's 
behavior, so it is the toughest test--yet I have spoken to 
defectors from North Korea, including people who have been in 
the camps, who have told me that when there is greater 
international attention to the human rights situation in our 
country or former country, including this commission, the 
treatment of prisoners in the labor camps improved.
    So if it can work--and it is a very modest effect in North 
Korea. But if it can work in that kind of setting, where one 
hopes the camp commanders are thinking, ``Darn, my name 
appeared in this report. It may not be good for me in the 
future, if Korea is reunified.'' Then I think it can work just 
about anywhere. I think in Burundi and other cases, I picked up 
on a similar dynamic.
    Senator Merkley. Thank you.
    Senator Young. Before I ask a question about membership, 
which I know is something of interest to each of you, I would 
like to pick up on a remark made by Mr. Neuer and a similar 
remark by Ms. Silverberg pertaining to this dynamic of 
countries that are improving their relations, Sunni countries, 
many of the GCC countries, improving their relationship with 
the State of Israel, and yet they will very publicly at the 
Human Rights Council exhibit an anti-Israel bias for the people 
back home.
    Mr. Neuer, I have a couple thoughts here. Perhaps you can 
clarify.
    One is, we can change the calculus, as Ms. Silverberg has 
suggested, change the calculus of these countries and encourage 
them not to exhibit that bias by increasing the cost of 
exhibiting the bias, right? Another concern though is, if you 
aggravate that relationship, which is improving, you do not 
allow them to publicly vent, will you undermine that improving 
relationship? Perhaps you can speak to that.
    And, Ms. Silverberg, you could expand on your position.
    Mr. Neuer. I think the experts will have to consider on a 
case-by-case basis what the relationship is with each country.
    Senator Young. Let's take Saudi Arabia.
    Mr. Neuer. Yes, so Saudi Arabia is an example. Actually, 
today, it is not the Human Rights Council, but a lot of the 
things that happen at the United Nations happen across-the-
board.
    Today, in Geneva, the World Health Organization just met 
for its annual assembly, and they just voted to single out one 
country in the world for health conditions, and that is Israel 
and its treatment of Palestinians and the Druze in the Golan 
Heights who live exceptionally well, so the resolution was 
absurd.
    The cosponsors included not only Syria, a cosponsor of the 
resolution, and the Palestinians, but also Saudi Arabia and 
other Sunni countries like Kuwait. So that is just an example 
today where even as President Trump flew from Saudi to Israel, 
and there were reports in the press that Saudi Arabia would be 
open to allowing overflights and other changes and improvements 
in their relationship with Israel, and it has been reported 
that there are private dealings with Israel, they clearly have 
no problem with going along with these things.
    I think it should be tried. I am not worried that it would 
hurt the relationship. I think it should be tried.
    Senator Young. Okay, so we will soon be considering here in 
the United States Senate whether or not to offer certain 
precision-guided weapons to the Saudis to carry on their fight 
in Yemen. This could conceivably be a precondition for that. 
That certainly would be leverage, one would think.
    Would that be a bridge too far or something you need to 
reflect more on? I won't put you on the spot.
    Mr. Neuer. I would not want to go specific on which 
measures should be held as preconditions. There are many things 
which the United States wants the Saudis to do and to not do. 
Women's rights is one example. As you know, Saudi Arabia was 
just elected to the women's rights commission of the United 
Nations, something that we exposed. That is also a very 
important matter, how they treat women.
    So I think, across-the-board, these things will need to be 
looked at.
    Senator Young. Ms. Silverberg, you want to increase the 
cost, change the calculus.
    Ms. Silverberg. There are a lot of equities in our 
relationships with every one of these countries.
    Senator Young. Yes.
    Ms. Silverberg. I would not suggest that this has to be the 
top of the list. I do not think it has to be, actually. It is a 
very low-cost request to these guys, that they basically do 
their venting in a place where we do not pay the cost.
    So right now, the fact that they are putting us in this 
uncomfortable position in Geneva is what is raising this 
question about our continued ability to use the council to 
pursue our human rights agenda.
    It is the same thing with the Security Council. When I was 
Assistant Secretary, every veto instruction I had to issue was 
on an Israel-related resolution, which was advanced principally 
by a key U.S. partner. So they put the United States in the 
position, in an uncomfortable position, as a way of--we paid 
the cost for that.
    So I think it would be enough, actually, for the Trump 
administration to say this is a priority we are watching and we 
would like you to take the venting elsewhere.
    Senator Young. Thank you.
    With respect to membership, more than half the countries on 
the council are designated by Freedom House in their 2017 
Freedom in the World report as either not free or partly free. 
I ask all of you, what can and should the United States and our 
international partners specifically do to keep the world's 
worst human rights abusers off the council? You might address 
in your answers how we can increase the frequency of 
suspensions for countries that fail to respect human rights and 
whether it would be helpful to end the use of closed states, 
which Mr. Malinowski suggests denies U.N. members the ability 
to vote for the best candidates and against the worst.
    Mr. Malinowski.
    Mr. Malinowski. I will start with the closed slates 
problem, and you know how this works. The elections, all 
members of the U.N. can vote, but the slates are selected by 
the regional groupings. So if Africa gets four seats, if they 
nominate four members, then there is no choice, because four 
will go through, however popular or unpopular they are.
    Last year, the Eastern Europe group did the right thing and 
nominated more than the number of the allotted seats that they 
had, and Russia lost. It was a really, really big deal.
    I would add that one of the regional groupings that does 
not do the right thing and that maintains a closed slate is our 
own. So we have to be willing, if we believe in this, to run 
ourselves on an open slate and to subject ourselves to the 
judgment of the members. That is sometimes uncomfortable for 
the State Department. We would rather be assured of victory 
ourselves, even as we want the right to vote on others.
    But I think this is the key reform that would make a big 
difference.
    Senator Young. Mr. Piccone.
    Mr. Piccone. I would, in addition, add a couple things. It 
really requires an effort with other like-minded states to 
recruit others that we think will be on the right side on these 
issues to run. For a lot of low-income or small-island states, 
they do not have the resources to manage a mission in Geneva. 
There is a technical assistance fund to support them, so let's 
continue to support that. It has made a difference. We have had 
Sierra Leone, a small, very poor country that joined the 
council, and we worked very effectively with them to break up 
that Africa bloc on some key votes.
    We also need to use the annual elections process to really 
embarrass the worst country states.
    And I think you can go further. When you do have a closed 
slate, you can still deny a state by making sure that they do 
not get that 97 minimum votes to even get on the council.
    So it is hard, but why not go for that kind of goal?
    Senator Young. Could I interject? What would that look 
like, to embarrass a candidate country in the course of an 
election?
    Mr. Piccone. Sure. I think you convene public sessions on 
the margins of the U.N. General Assembly around election time, 
and you call on the Office of the High Commissioner to give a 
report on whether a state is cooperating with the council, have 
the invited countries visit people. You then have human rights 
activists come and give a report on how they are actually 
performing on the ground. And there are criteria that are 
adopted by all the member states about how to elect candidates, 
and you just use the criteria that they have agreed to.
    Those are my main recommendations on that.
    Senator Young. Anyone else? That was quite helpful.
    Mr. Neuer.
    Mr. Neuer. I think this is a vital issue. U.N. Watch, since 
the beginning of the council, has been leading the opposition 
each year to the election of dictators. We have brought the 
most famous human rights victims to the United Nations in New 
York to argue against the election of China, Cuba, Saudi 
Arabia, Venezuela. Sadly, with just really a handful of 
exceptions, they always get reelected.
    So how do we fix that? I think two things need to happen. 
One is serious diplomatic heavy lifting by the U.S. State 
Department together with its allies. To date, we have not seen 
that, in my opinion. We saw Russia losing, so I assume that 
some work happened behind the scenes. But otherwise, in the 
past decade, we have seen very little of it.
    Senator Young. Why do you believe that is, very quickly? I 
mean, it is not as though our Congress, our government is not a 
friend of Israel. We are a friend of Israel. We are close 
allies. So why do you think that has been the case?
    Mr. Neuer. Well, if we look at Saudi Arabia, for example, 
being elected, the U.S. is obviously a close ally of Saudi 
Arabia. With China being elected, the U.S. may fear to take on 
China. You go across-the-board, I will defer to those who 
served in government to respond.
    But I do want to say one thing. We could not get the United 
States or the European Union to say a word, forget about what 
they were doing or not doing behind the scenes, but to go on 
the record and say that Cuba, China, Venezuela, should not be 
elected. I could not get them to go on the record. There was 
really a handful of cases, when Iran and Syria were running, 
and we exposed that, and then they made a statement. But 
otherwise, they have been completely silent.
    Mr. Malinowski. I know on that, right or wrong, we have had 
a policy, and I am not sure if you had it in the Bush 
administration, but I think it has been a fairly consistent 
policy, of not publicly announcing our votes in the U.N. for 
members of various bodies, because once you do that, then you 
get into offers of horse-trading and negotiations. We would 
rather sort of stay above the fray.
    So we will say that we have a policy of voting against 
human rights violators for the Human Rights Council, and you 
know what that means. Obviously, we are not going to vote for 
Cuba or Russia or China.
    We had an active policy, and I am sure you did in the Bush 
administration, of trying to recruit good candidates and urging 
our partners around the world to vote against the bad 
candidates behind the scenes.
    But again, for better or worse, different views on this, we 
did not announce our preferences publicly.
    Ms. Silverberg. We did generally have that policy. We made 
a couple exceptions. One, when Venezuela sought a Security 
Council seat, we recruited a country to run against them and 
then ran a very public campaign to try to keep them off the 
council.
    In my view, this issue of closed slates of regional 
consensus candidates goes to some of the core U.N. dysfunction. 
It is an issue not just with the Human Rights Council but 
really across-the-board at the U.N. It is the role of the 
regional groups. If the State Department can figure out how to 
crack that nut, it will really, I think, have enormous positive 
implications across the system.
    Senator Young. Thank you. I have so many more questions, 
but I will be passing it to Senator Merkley, and note that we 
will be concluding in 20 minutes.
    Senator Merkley.
    Senator Merkley. I am fascinated that there has not been a 
rule strategy to solve this, whether the rule might be that 
each region must nominate twice as many countries as there are 
slots so it creates something competitive, or that there has to 
be a certain standard in an international report to serve on 
the Human Rights Council.
    Have we attempted some strategies to change the kind of 
internal dynamics that you all are describing either behind the 
scenes or as an actual proposed rule change?
    Ms. Silverberg. We made the proposal as part of the 
original negotiations over the Human Rights Council. We made 
the proposal that countries be required to run more than one 
candidate per seat.
    As Tom said, one of the real issues with this is that the 
Western group, to which we belong, likes to use consensus 
candidates, that no country likes to put itself forward for 
election and then lose. This was particularly in mind for the 
United States during the negotiations, because we had lost a 
race for the Commission on Human Rights. So that was in the 
back of everyone's minds.
    My own view is that it is well worth the risk. I would 
happily see the U.S. lose on occasion if we could actually get 
at this core issue of countries who really do not have a good 
faith commitment to the institution filling some of the seats.
    Senator Merkley. Would all of you share that view, that it 
is worth the risk?
    Mr. Malinowski. Yes, I think if I have one simple argument 
to make today, it is that we are pretty good at winning when we 
put our minds to it. We have good diplomats. When they are told 
something is a priority, and to go out, fan out around the 
world from Moscow to Mauritius, and try to win a vote at the 
United Nations, including for our own membership on a body, if 
we are really serious about it, I think we are pretty good at 
winning--so long as we confirm our Assistant Secretaries and 
Ambassadors and give them a budget, I would add, as a caveat.
    Senator Merkley. Very good.
    Yes, Mr. Neuer?
    Mr. Neuer. I think the effort should be made. And I just 
want to note there were some exceptions to the policy of not 
speaking publicly in opposition to candidacies. One was Syria 
when we revealed that Syria was being chosen by the Asian 
group. The United States did go on the record, and the European 
countries, in the only case that I am aware of, did go on the 
record, a number of them, EU countries, to oppose Syria's 
candidacy, in the end.
    Senator Merkley. When you say, ``when we exposed that Syria 
was being nominated,'' aren't the nominations public? Aren't 
the people voting on countries that are nominated?
    Mr. Neuer. Things tend to be secret until the end.
    Senator Merkley. Secret until the moment of nomination.
    Mr. Neuer. Yes, diplomats in the Asian group told us that 
Syria was being selected, but it was not public yet.
    Senator Merkley. Selected to be a nominee.
    Mr. Neuer. Correct.
    Senator Merkley. But the entire membership of the U.N. is 
voting secretly on these. No? I see some shaking heads ``no'' 
there.
    Mr. Malinowski. Once the candidates are known, then it is a 
public vote. What our policy has been, with admittedly some 
exceptions to the rule, is that when there is an election for 
members of a particular U.N. body, be it the Human Rights 
Council or the Security Council or something else, we have 
generally not publicly announced who we are voting for and who 
we are voting against, for the reason that I mentioned.
    Senator Merkley. No, I got that.
    Mr. Malinowski. And there is an argument for and against 
that policy, but that has been generally the standard in very 
egregious cases, and I think that was a good example you 
raised. We have been more honest and said, of course, we are 
voting against Syria.
    Senator Merkley. Did you want to weigh in on this?
    Mr. Piccone. On the final vote, we know the vote tally, but 
we do not know how every country voted, for which government.
    Senator Merkley. Because it is secret.
    Mr. Piccone. But we have had cases where, through our 
diplomatic channels, hearing about candidates that are being 
discussed, and activated an effort to derail certain 
candidates. And knowing that they would lose, they withdrew 
their candidacy. That happened with Iran.
    Then when there have been open contests, we have also 
defeated countries like Azerbaijan and Belarus and others.
    Senator Merkley. Yes, Mr. Neuer?
    Mr. Neuer. I think we should redouble our efforts to 
improve the elections. I do want to say that, if that fails, 
which according to recent experience, it will fail, then we 
should consider scrapping the entire election process and going 
to what exists in New York in the Third Committee where every 
country is a member, because the elections currently serve the 
dictatorships. The Saudi Ambassador in Canada, when he was 
challenged about their human rights record, said, ``What are 
you talking about? We were elected to the Human Rights 
Council.''
    They use election to the Human Rights Council as a false 
badge of international legitimacy. If the election system 
continues to fail, we should scrap it and let every country, 
which are already observers and present in Geneva, let them be 
members.
    Senator Merkley. I will tell you one thing that would be of 
value to us is to have you all, with your experience, suggest 
to us three or four different ideas that could also be 
suggested to the Ambassador of the United Nations. We went up 
to the U.N. to have an initial conversation with our 
Ambassador, to understand some of the things that she was 
wrestling with. This Human Rights Council is one of those. 
Sometimes the battle is fought on the process as a way of 
getting to the result.
    I wanted to switch to the question of, if you get elected, 
does that protect you from being the target of a commission of 
inquiry?
    Mr. Piccone. In principle, no, it does not.
    Senator Merkley. Not in principle, but in reality.
    Mr. Piccone. In practice, I am just quickly running through 
my mind, the states that have been subject to commissions of 
inquiry I think have not been on the council at the time those 
decisions were made. Of course, they are given an opportunity 
to speak and object and lobby others against it, but they have 
been, obviously, unsuccessful in those cases that I mentioned.
    Senator Merkley. I think it is interesting, as you all have 
noted, that being elected is sometimes used as a defense that, 
``Oh, our human rights cannot be that bad. We were elected to 
the Human Rights Council.''
    I am guessing an additional incentive to get onto it is to 
deflect your country being a target of inquiry. And, thus, we 
have this kind of perverse incentive. Instead of having the 
countries that are really striving to elevate human rights, we 
have an incentive for those who are not striving to elevate 
human rights be members. That is just a fundamental flaw in the 
design that we have to try to remedy.
    I wanted to turn to the Universal Periodic Review. Is that 
done each year?
    Mr. Piccone. It is a cycle. Over the course of 4, 4.5 
years, every country is reviewed once. They just finished their 
second cycle. So every country has now been reviewed twice. And 
recommendations are tabled by governments, and accepted or not 
accepted by the receiving government. Then the second review 
reviews their implementation of the progress they have made on 
the first round, among other things.
    Senator Merkley. Is this also subject to enormous pressure 
or manipulation? In other words, if we were to take a group 
like Human Rights Watch the does totally independent reports, 
would their results be more or less similar to these internal 
U.N. Universal Periodic Reviews?
    Senator Young. If I could interject, respectfully, I always 
like to stir up disagreement wherever possible in these 
hearings. I note that there is seemingly a disagreement between 
a couple of our panelists on this. I would like to get clarity 
on your positions.
    Mr. Piccone, you described UPR in pretty positive terms, in 
your testimony.
    Mr. Neuer, you say that most of the reviews have failed to 
be meaningful, effective, or noteworthy, and you cite examples 
in which there were renowned human rights abusing countries, 
and you refer to this essentially as a mutual praise society.
    So thank you for indulging me.
    Ms. Silverberg. May I just hop in? I am closer to Hillel on 
this point. In fact, I think I might think it is even slightly 
worse, because the fact that this is universal facilitates a 
kind of moral equivalence. You will see a paragraph about how 
Sweden is trying to promote gender equality in the Swedish 
Government, and it looks just like the paragraph on another 
country that is dealing with extrajudicial killings. The fact 
that countries all go through this actually has some really 
negative effects.
    My 4-year-old's preschool class has this practice of having 
everyone go around the room and say something nice about all of 
their classmates, and UPR functions a little that way, that you 
will have the UPR on Algeria and you will have a bunch of 
countries welcoming progress that Algeria has made and 
embracing--and that happens with every country, no matter what 
their human rights record.
    So my own view is, actually, we really need to think about 
whether UPR is giving the countries without constructive 
records a positive talking point in their defense.
    Senator Young. Tom?
    Mr. Malinowski. Yay, we have a disagreement.
    [Laughter.]
    Mr. Malinowski. First of all, I think the universality, the 
fact that Sweden and the United States are subject to this, is 
actually quite helpful.
    When I was Assistant Secretary for Human Rights, it was 
really, really important to me in a lot of hostile situations 
dealing with authoritarian governments to say, ``You know what? 
The United States has these obligations too. We subject 
ourselves to scrutiny. We come to Geneva. We are totally open 
about NGOs asking us questions, other countries challenging us 
if they think we have a problem, answering those questions. We 
are not defensive. You should not be either.'' It was important 
for us to be able to say that there is this equality.
    Number two, absolutely, when Cuba is up there doing its 
UPR, the Chinese and the Russians will go to that session and 
they will praise them. Of course, they will. The Cubans will 
praise the Russians. You cannot design any system in the U.N. 
in which the dictators will not praise each other. I mean, they 
are going to do it.
    But that is not all that happens because the democracies 
are also on those panels, and we had a policy under the Obama 
administration of attending every country's UPR and asking 
tough questions, and there are other democratic countries that 
do the same thing.
    So Algeria, sure, they are going to get some praise from 
somebody, but they will also have five or six countries on that 
panel asking them about freedom of expression, political 
prisoners, how they treat LGBT people and women. And for the 
powerful countries like Russia and China, which because they 
are permanent members really do have a lot of defensive 
mechanisms to protect themselves against resolutions and 
commissions of inquiry, this is the one place where they sit at 
a table like this with people on a higher panel asking tough 
questions, where they have to answer them, where there are 
recommendations made that go to the heart of the problem in 
those countries. And when we talk to activists in these 
countries, they really, really value this process.
    So this is something I am relatively positive about, more 
so than other things that go on in Geneva.
    Mr. Neuer. When Qaddafi was reviewed, the New York Times 
actually wrote a whole article quoting the reviews, 80 percent 
of which were praise for Qaddafi. That number remains 
consistent for a number of countries. I often speak when the 
UPR reports are adopted, and they open them up, and I ask one 
of my colleagues, count how many statements and recommendations 
are praise. Often, the number is 80 percent.
    So it is really not a small minority. It is a lot. The 
praise comes from China praising Saudi Arabia for their actions 
on religious freedom, and Saudi Arabia the next day praising 
China for their treatment of ethnic minorities.
    But it is also democracies. Many democracies fail to stand 
up and ask concrete, specific, meaningful questions that apply 
scrutiny.
    So I think a lot of work has to be done. I am glad the UPR 
exists on paper. It is good for NGOs. It is a chance once every 
4 or 5 years to spotlight China or some other country. But 
regrettably, what happens in the room too often is then used by 
those regimes back home.
    I think the action item for democracies is to work much 
harder in getting our allies----
    Senator Merkley. We are down to just 7 minutes left, which 
I am going to leave with the chair, so I will just ask this 
last piece.
    Duterte, President Duterte in the Philippines, has had now 
I think more than 6,000 extrajudicial killings, encouraging 
people to be cut down in the street. The Philippines is on the 
commission, if this is a recent list. I think it is.
    Is there ever a case where the Human Rights Commission 
says, ``There are egregious actions. We need to expel someone 
from the Human Rights Commission'' ?
    Mr. Malinowski. Yes, that can be done. It was done with 
Libya. So Qaddafi got a lot of praise, then he got kicked out 
once he got unpopular. That is politics.
    I think it would be difficult in the case of the 
Philippines. Remember that when the Philippines was elected, I 
think we were probably quite happy at the State Department 
because it is a democracy and it is our ally and we thought it 
is a lot better than a lot of alternatives in Asia. And we are 
all now kind of adjusting to a reality in which they are still 
a democracy, but there is----
    Senator Merkley. So is Libya the only case?
    Mr. Malinowski. Yes, I think so.
    Senator Merkley. I am going to turn the time back over to 
the chairman. I thank you all so much for coming. It certainly 
helps us have a much better understanding. I would encourage 
you to follow up with the members of the subcommittee on ideas 
that you have that we should consider, and consider advocating 
for, or consider brainstorming with our delegation at the 
United Nations on. I really appreciate your service and 
insights.
    Thank you.
    Senator Young. I want to thank our ranking member for his 
thoughtful questions. I just really enjoy serving with you on 
this subcommittee.
    The exchange on UPR, to our panelists, was clarifying. I 
think everyone agrees that we should maintain the UPR, 
irrespective of its deficiencies, looking perhaps to improve it 
along the way, as we would anything.
    Mr. Neuer, yesterday, you sent a letter to the U.N. High 
Commissioner for Human Rights regarding the apparent 
secretariat policy of disclosing the names of human rights 
activists attending Human Rights Council sessions to requesting 
state parties, including China, in advance of the session.
    Can you describe what has happened? Why would this happen? 
Why would this be the policy, why you find it concerning, and 
perhaps what we should do about it?
    Mr. Neuer. Thank you.
    This policy, which we find outrageous, is something of 
direct concern to us because we bring human rights victims to 
speak. We brought Ti-Anna Wang, whose father is a democracy 
pioneer in China who remains behind bars for his democracy 
work. We brought her to testify a couple years ago at the Human 
Rights Council.
    She was intimidated by Chinese agents who were accredited 
NGO delegates but were actually, apparently, agents of the 
Chinese regime. They were detained by U.N. security, and then 
one of them was expelled because of his actions to harass and 
photograph our human rights activists.
    So Chinese harassment is a real issue. Actually, Human 
Rights Watch yesterday had a press release about it in various 
U.N. fora.
    When we learned from a U.N. whistleblower, Emma Reilly, who 
works for the Office of the High Commissioner--she was that 
office's liaison to NGOs. And she said she was instructed by 
the chief of the Human Rights Council Branch to ``confirm,'' 
according to the U.N. press release, that they confirmed names 
to China. The Chinese gave about 12 names to the U.N. and said, 
``are any of these activists coming to the upcoming session?'' 
According to the U.N. press release of February of OHCHR, they 
confirmed--that language is a dubious word, because China did 
not have that information. They gave names to China of 
activists who were coming.
    We find that outrageous. If that policy is still in 
existence, it is written nowhere on any OHCHR Web site for 
activists to know about, and it endangers the safety and 
security of human rights activists from China and other 
countries who come to speak at the council.
    Ms. Silverberg. May I just add----
    Senator Young. Please.
    Ms. Silverberg.--that I said in the testimony that the 
chief of the Human Rights Council Branch should be replaced. I 
would put that high on Ambassador Haley's to-do list on Geneva. 
This is one of the many reasons why.
    Senator Young. Any other thoughts about how we might 
improve this situation? This seems like a really good start.
    Mr. Malinowski. Forgive me for this, but I think there is a 
somewhat broader point that we need to keep in mind, and I 
think both of you alluded to it in your opening statements, and 
that is that, if we want to make the Human Rights Council more 
effective, that presupposes that we care about human rights in 
our foreign policy. Let's be honest, that is somewhat in doubt 
right now.
    I mean, you mentioned the case of the Philippines. The one 
thing that I would add to my previous answer is that I do not 
think our government right now would support an effort to 
remove the Philippines from the Human Rights Council because I 
am sorry to say that our President has just endorsed the policy 
of extrajudicial killings there.
    And I think there are a lot of questions around the world 
about whether the Human Rights Council will effectively speak 
up for human rights. We have been focused on that in this 
hearing, but there is a larger question about what the policy 
of the United States is going to be going forward, given 
Secretary Tillerson's comments that this is a value but not a 
policy, some of the strange things that the President has said, 
and then very much contrary to that, our Ambassador to the 
United Nations acting very much in the tradition, bipartisan 
tradition, of administrations that care about this issue.
    That is the key thing that needs to be resolved here. If it 
is resolved in the right way, then all of our recommendations 
become relevant. If it is not, then this is kind of deck chairs 
on the Titanic.
    Senator Young. I see a number of affirmative nods. I think 
that is perhaps a very good place to end. I want to thank all 
of our panelists once again for your thoughtful and thought-
provoking testimony. And that concludes our hearing.
    [Whereupon, at 3:39 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  The Committee Received No Response From Kristen Silverberg for the 
          Following Questions Submitted by Senator Todd Young

    Question. In your prepared testimony, you stated that ``With 
respect to the [Office of the High Commissioner for Human Rights], the 
U.S. should . . . insist on measures to put teeth behind U.N. 
whistleblower protections.'' What specific reforms do you believe are 
necessary with respect to the Office of the High Commissioner and 
whistleblower protections?

    [No Response Received]

    Question. What is the process for convening an ``urgent session,'' 
and do you believe the U.S. is making sufficient use of this option?

    [No Response Received]

    Question. What reforms are necessary in the Office of the High 
Commissioner? What role could or should Congress play in promoting 
those reforms?

    [No Response Received]
                               __________

               Responses of Tom Malinowski to Questions 
                    Submitted by Senator Todd Young

    Question. Ms. Silverberg, in her prepared testimony, stated that 
``With respect to the [Office of the High Commissioner for Human 
Rights], the U.S. should . . . insist on measures to put teeth behind 
U.N. whistleblower protections.'' What specific reforms do you believe 
are necessary with respect to the Office of the High Commissioner and 
whistleblower protections?

    Answer. The United States has consistently advocated for better 
protection of whistle blowers at the U.N.. As a result, there have been 
important improvements over the last decade. This is true for OHCHR as 
well. In January this year, Secretary General Guterres announced a more 
robust whistleblower protection policy, which empowers investigators 
and provides better protections against retaliatory action. We should 
closely monitor the implementation of this policy to determine whether 
it is sufficient.

    Question. What is the process for convening an ``urgent session,'' 
and do you believe the U.S. is making sufficient use of this option?

    Answer. A Special Session is used when a grave human rights 
situation emerges and the Council decides it cannot wait for one of the 
three yearly ordinary Sessions of the Council. Calling a Special 
Session requires the signatures of 1/3 of the 47 members of the 
Council--or 16 member countries. Over the last two years, the United 
States has led efforts to call Special Sessions on the human rights 
situations in Burundi and South Sudan, and, along with the UK, on 
Syria. The Special Session is an important tool to highlight both 
emerging crises and focusing the world's attention on the gravest of 
situations. But it has to be used carefully. Overuse would eliminate 
its power and usefulness.

    Question. What reforms are necessary in the Office of the High 
Commissioner? What role could or should Congress play in promoting 
those reforms?

    Answer. We should first acknowledge the vital role OHCHR plays in 
the promotion of human rights around the world. It is the main 
international tool we have for getting help and advice to fragile 
democracies dealing with tough human rights problems (for example, its 
institutional capacity building in Columbia and technical assistance 
mission in Cote D'Ivoire), and for deploying investigative teams to 
document human rights abuses (for example, in Burundi, Burma, Yemen and 
Russian-occupied areas of Ukraine). OHCHR has the diplomatic 
credibility that comes from being a U.N. body, but it has also 
maintained its moral credibility. The current High Commissioner, Zeid 
Ra'ad al Hussein, has been principled and fearless in calling out human 
rights abusers, including powerful governments like Russia and China. 
He has worked cooperatively with the United States. We need his 
leadership--and that of OHCHR--more than ever, given the stated intent 
of the President of the United States and our Secretary of State to 
deemphasize human rights in our foreign policy. In fact, I would 
strongly advocate increasing America's voluntary financial 
contributions to OHCHR, particularly for its field investigations and 
technical assistance missions.
    An important reform we should support would be to realize the High 
Commissioner's plan to move personnel out of the main office in Geneva 
to OHCHR's regional and country offices. This restructuring would bring 
human rights professionals where they are needed most, on the ground in 
countries seeking to address human rights challenges. This initiative 
is viewed as a threat by some states that do not want a more effective 
OHCHR. Thus far, these states, such as Cuba, China and Russia, have 
blocked action in the Fifth Committee in New York. We should offer full 
throated support the High Commissioner's restructuring proposal.
                               __________

    The Committee Received No Response From Hillel C. Neuer for the 
          Following Questions Submitted by Senator Todd Young

    Question. Of the total amount of resolutions adopted by the Council 
in its last calendar year, what percentage condemned countries that are 
rated ``Not Free'' under the latest annual Freedom House survey?

    [No Response Received]

    Question. Ms. Silverberg, in her prepared testimony, stated that 
``With respect to the [Office of the High Commissioner for Human 
Rights], the U.S. should . . . insist on measures to put teeth behind 
U.N. whistleblower protections.'' What specific reforms do you believe 
are necessary with respect to the Office of the High Commissioner and 
whistleblower protections?

    [No Response Received]

    Question. In your prepared remarks, you argued that the ``U.S. 
should end its unwritten policy of submitting texts only when they are 
likely to be adopted.'' Can you describe this concern and its 
consequences from your perspective? What would be the benefit from your 
perspective of submitting texts that are not likely to pass?

    [No Response Received]

    Question. In your prepared remarks, you made the following 
statement, ``victims of human rights crises around the globe have been 
ignored'' by the Council. Where do you think the silence or inaction of 
the Human Rights Council has been most egregious?

    [No Response Received]

    Question. What is the process for convening an ``urgent session'', 
and do you believe the U.S. is making sufficient use of this option?

    [No Response Received]

    Question. Of the total amount of resolutions adopted by the Council 
in its last calendar year, what percentage were adopted under Agenda 
Item 4, concerning human rights violations in specific countries? How 
does that compare to Item 7?

    [No Response Received]

    Question. Do you have any concerns related to the number of people 
who work in the Office of the High Commissioner or that office's 
budget? What reforms are necessary in the Office of the High 
Commissioner? What role could or should Congress play in promoting 
those reforms?

    [No Response Received]

                               __________

                Responses of Ted Piccone for Questions 
                    Submitted by Senator Todd Young

    Question. Silverberg, in her prepared testimony, stated that ``With 
respect to the [Office of the High Commissioner for Human Rights], the 
U.S. should . . . insist on measures to put teeth behind U.N. 
whistleblower protections.'' What specific reforms do you believe are 
necessary with respect to the Office of the High Commissioner and 
whistleblower protections?

    Answer. Good governance requires strong whistleblower protections 
at any public institution, including the United Nations and all its 
agencies. The best way to handle this is to have a clear policy that 
applies to all U.N. employees and contractors.

    This is precisely what Secretary General Guterres has done when he 
approved an upgraded whistleblower protection policy on January 20, 
2017, just weeks after he assumed office. This new policy reflects best 
practices, including expanded protection from retaliation, preventive 
action where a risk of retaliation has been identified, and protecting 
staffers when they report misconduct ``to an entity or individual 
outside of the established internal mechanisms'' if it involves ``a 
significant threat to public health and safety,'' ``substantive 
damage'' to U.N. operations, or ``violations of national or 
international law.'' I understand that the Secretary General is 
continuing to review the policy and may take additional steps this 
summer.
    OHCHR is bound by these U.N. policies. In the wake of various 
reports of disputes regarding its implementation of such policies, it 
has repeatedly stated its support for whistleblower protection and 
claims full adherence to those standards. As the lead human rights 
agency for the U.N., it has a special obligation, in my view, to be 
rigorous about protecting those who ``speak truth to power'' whether 
inside or outside the organization.

    Question. What is the process for convening an ``urgent session,'' 
and do you believe the U.S. is making sufficient use of this option?

    Answer. According to U.N. General Assembly Resolution 60/251 
establishing the Human Rights Council, special sessions may be 
convened, ``when needed, at the request of a member of the Council with 
the support of one third of the membership of the Council.'' This one-
third requirement is a fairly low bar given the composition of the 
Council.
    Through 2016, the Council has held 26 special sessions on matters 
of particular urgency and gravity; 24 of these have concerned country 
specific situations like Syria, South Sudan, Libya, Central African 
Republic, grave violations committed by Boko Haram in Nigeria, and the 
Occupied Palestinian Territories. This mechanism has served a vital 
purpose of bringing particularly urgent and grave situations to the 
Council's agenda outside its normal three regular sessions. The United 
States can and should utilize this tool more often to bring issues 
forward that otherwise may not get the attention they deserve during 
the crowded regular sessions. To be effective, our diplomats need the 
proper resources and leadership in the State Department to do the extra 
spade work required to organize a functioning coalition of like-minded 
states that will not only support calling for the session but also 
yield results-oriented action by the Council

    Question. What reforms are necessary in the Office of the High 
Commissioner? What role could or should Congress play in promoting 
those reforms?

    Answer. I have called for OHCHR deploying more staff to the field, 
either in OHCHR offices or integrated into other missions like 
peacekeeping, humanitarian affairs and development. The current High 
Commissioner, Zeid Raad al Hussein, is trying to bring the Office's 
work closer to the ground by moving staff from high-cost locations like 
Geneva to regional offices. This and other reforms have been supported 
by the United States and other states from the Americas and Europe, but 
budgetary decisions to implement them continue to be blocked in New 
York by states that oppose more robust human rights scrutiny, like 
China, Cuba and Russia.
    Another area that needs attention is communications and outreach. 
If public and media attention is not brought to the world's human 
rights crises and concerns on a regular basis, states and other 
responsible parties will feel less pressure to change their ways. OHCHR 
has made a lot of improvements over the last several years in its 
digital and webcasting presence, but continues to be understaffed in 
this area. Partnerships with civil society, universities, businesses 
and the media would further help amplify its message and mainstream the 
universality of the international human rights agenda.
    OHCHR, and the human rights pillar of the U.N. more generally, have 
suffered for decades from a lack of regular budgetary resources. OHCHR 
is now facing a gap of over $100 million between the demands placed on 
it and its resources. Such a deficit hurts the Office's ability to 
deliver on human rights priorities that advance U.S. policies and 
interests. Voluntary contributions, therefore, are critical. As its 
largest donor, the United States is the leader in this field and should 
remain so. The Congress can help by ensuring continued contributions to 
OHCHR, advocating that it get a greater share of the U.N. regular 
budget (currently only three percent of which goes to all human rights 
activities), and urging other donors to make voluntary contributions as 
well.
    Finally, I believe it is critical that the long overdue effort to 
mainstream human rights across the U.N. under the banner of ``Human 
Rights Upfront,'' which Secretary General Ban ki Moon initiated after 
the debacle surrounding the grave human rights violations committed 
during the final stages of the conflict in Sri Lanka, continue under 
Secretary General Guterres.

                                  [all]
</pre></body></html>
